APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_______
IN RE: DAVID PETER BERGE,
Debtor.
_______
MARKETGRAPHICS RESEARCH GROUP, INC.,
Plaintiff-Appellant,
v.
DAVID PETER BERGE,
Defendant-Appellee.
_______
No. 18-6177
_______
Appeal from the United States Bankruptcy Court for
the Middle District of Tennessee at Nashville.
Nos. 3:13-ap-90400; 3:13-bk-07626—Marian F.
Harrison, Judge.
_______
Argued: June 19, 2019
_______
Decided and Filed: March 27, 2020
_______

2a
Rehearing Denied: May 6, 2020
_______
Before MOORE, COOK, and READLER, Circuit
Judges.
_______
OPINION
_______
CHAD A. READLER, Circuit Judge.
For the
Berge family, federal litigation
unfortunately has become something of a family
affair. David Berge and his parents, Don and
Martha, were named as defendants in an unfair
competition lawsuit brought by MarketGraphics
Research Group, Inc., a company with which Don
had
previously
been
associated.
Before
MarketGraphics could proceed to judgment, Don and
Martha filed for Chapter 7 bankruptcy. And when
MarketGraphics ultimately obtained a judgment
against David, he soon began pursuing Chapter 7
proceedings of his own.
David’s Chapter 7 filing made MarketGraphics a
judgment creditor in David’s bankruptcy proceeding.
MarketGraphics initiated adversary proceedings to
assert that its claim should be exempted from
discharge in accordance with 11 U.S.C. § 523(a)(6),
which prevents a debtor from discharging claims for
injuries he willfully and maliciously caused.
According to MarketGraphics, the earlier judgment
preclusively established such conduct on David’s
part. The bankruptcy court disagreed and denied

3a
MarketGraphics’s request to exempt its claim from
discharge.
We agree with the bankruptcy court. Nothing in
the record of these proceedings or the proceedings for
the underlying judgment supports a finding that
David acted with the requisite intent under
§ 523(a)(6) to harm MarketGraphics. Nor do we
accept MarketGraphics’s contention that we are
precluded from reviewing that issue in the first
instance. Accordingly, we AFFIRM the judgment of
the bankruptcy court that David’s debts are
dischargeable.
I.

BACKGROUND
A.
David Works For His Father, An
Independent
Contractor
For
MarketGraphics.

MarketGraphics collects, analyzes, and distributes
data related to residential housing markets. For the
Memphis market, Don served for many years as
MarketGraphics’s
licensee.
Working
as
an
independent contractor, Don collected data and
maintained the company’s local client relationships.
To assist with data collection, MarketGraphics
licensed its maps and other intellectual property to
Don.
From the time he was in high school, David often
assisted his father in the business. Don and David
would “driv[e] the market” to determine growth and
collect data to generate reports for MarketGraphics.
These efforts continued until 2012, when Don
terminated his relationship with MarketGraphics to
venture out into the industry on his own. David, who
by that time was a real estate agent living in

4a
Nashville, agreed to help his father with his new
endeavor.
Don established a new business under the name
Realysis. Realysis consisted of three single-member
LLCs. Don made himself the sole member of Realysis
of Jackson, made his wife, Martha, a teacher, the
sole member of Realysis, and made David the sole
member of Realysis of Memphis.
MarketGraphics sent letters to its Memphis clients
letting them know that Don retired and that the
company would service their accounts directly.
Despite non-compete and confidentiality provisions
in Don’s independent contractor agreement with
MarketGraphics, Realysis also wanted to service
those clients. So Realysis wrote to MarketGraphics’s
clients to “clear up the confusion” regarding the
distinctions between MarketGraphics Research
Group in Nashville and Realysis of Memphis, LLC as
well as Don and David’s roles in MarketGraphics and
Realysis, respectively. The letter stated that Don and
David gathered all of the information for
MarketGraphics for fifteen years, that David was
now the sole owner of Realysis of Memphis, LLC, and
that Realysis would produce reports every quarter
going forward. The letter was sent under David’s
name and from his Realysis email address. Realysis’s
letter generated yet one more letter, this time one
from MarketGraphics to Realysis reminding Realysis
that Don had signed a contract with non-compete
and confidentiality provisions. But Realysis
continued to compete against MarketGraphics—and
effectively so. In under a year, MarketGraphics lost
75 percent of its Memphis-area customers to
Realysis.

5a
B.
MarketGraphics Sues The Berge
Family And The Realysis Entities.
In view of what MarketGraphics perceived as
unfair competition by Realysis, MarketGraphics filed
a twelve-count complaint in federal district court
against Don, David, Martha, and the Realysis
entities. MarketGraphics asserted a host of claims,
including copyright and trademark infringement,
unfair and deceptive trade practices under the
Tennessee Consumer Protection Act (or TCPA), and
violations
of
Tennessee
common
law.
MarketGraphics successfully sought a preliminary
injunction against all the defendants.
Represented by the same counsel, the defendants
filed an answer and responded to MarketGraphics’s
interrogatory requests. MarketGraphics in turn
moved for summary judgment and submitted an
accompanying statement of facts. When none of the
defendants responded to MarketGraphics’s motion,
MarketGraphics provided the district court with a
proposed judgment. But before the district court
entered the proposed judgment, Don and Martha
filed for Chapter 7 bankruptcy. The district court
stayed the claims against David’s parents, leaving
David as the sole remaining active individual
defendant.
Soon thereafter, the district court entered
judgment against David and the Realysis entities.
The judgment was identical to the proposed
judgment that MarketGraphics submitted. It
included several findings regarding David and
Realysis, including that they: (1) “willfully or
knowingly” violated the TCPA, (2) willfully infringed
upon MarketGraphics’s copyrighted works, (3) acted

6a
in concert with Don to violate Don’s non-compete
agreement with MarketGraphics, and (4) wrongfully
impaired goodwill among Memphis customers and
created unfair competition. The district court
permanently enjoined David and the Realysis
entities and awarded MarketGraphics $332,314.94 in
damages.
C.
David Seeks To Discharge In
Bankruptcy The Debt Associated With
The District Court Judgment.
Following the judgment, David joined his parents
by filing Chapter 7 bankruptcy proceedings of his
own.
MarketGraphics responded by filing an adversarial
complaint asserting that David’s judgment debt was
non-dischargeable pursuant to 11 U.S.C. § 523(a)(6).
To be non-dischargeable under § 523(a)(6), the prior
judgment must be for a “willful and malicious”
injury. MarketGraphics then moved for summary
judgment. David opposed the motion, disputing the
scope and nature of the district court’s findings as to
willfulness and malice.
The parties then spent the next four years
litigating how to interpret the phrase “willful and
malicious.” The parties debated whether § 523(a)(6)’s
willful-and-malicious standard is a unitary or twopronged test. And if it is a two-pronged test, the
question remained how to define those respective
terms (willful and malicious).
With respect to the threshold inquiry, the
bankruptcy court applied a two-pronged test, holding
that for purposes of § 523(a)(6), the prior judgment
must involve an injury shown to be both willful and

7a
malicious. As the district court in the earlier action
did not address the “malicious” conduct prong, the
bankruptcy court denied MarketGraphics’s request
that the earlier judgment be given preclusive effect
in the bankruptcy. The district court denied
permission for an interlocutory appeal.
The bankruptcy court then conducted a bench trial.
Much of the trial’s focus was on David’s role in
Realysis’s operations. Throughout his testimony,
David disputed his degree of involvement in and
knowledge of the Realysis enterprise. Both David
and Don testified that Don was Realysis’s primary
architect and operator. David claimed his
participation in Realysis “was very, very limited.” To
the extent he engaged with the new entity, it was
simply to help his financially unstable, 70-year-old
father. David testified that Don sent the solicitation
letter to MarketGraphics’s clients using David’s
name. While David reviewed and did not object to
the contents of the letter before it was sent, including
the use of his name, David believed, based upon
Don’s representations, that neither he nor Don were
subject to the non-compete provision.
Following trial, the bankruptcy court dismissed
MarketGraphics’s adversarial complaint. The lone
“issue at trial,” the court explained, “was whether
[David] acted with malice.” The bankruptcy court
found that he did not. While Don had used his family
to create an elaborate scheme to avoid liability,
David, by comparison, was “very credible” and less
culpable.
The case then went back up to the district court,
this time before Judge Crenshaw. Taking up the
threshold legal issue, the district court found that

8a
“[t]he ‘willful and malicious’ standard in § 523(a)(6)
ha[d] evolved” in the Sixth Circuit from a twopronged approach to a unitary standard. The district
court vacated the bankruptcy court’s judgment in
part and remanded the case with instructions to
decide the question of issue preclusion consistent
with this unitary standard.
Back down to the bankruptcy court, then, to
examine the preclusive effect of the prior district
court judgment. Assessing the earlier judgment, the
bankruptcy court concluded that two of the key
claims at issue there—the TCPA and Copyright Act
claims, respectively—each defined “willful” more
broadly than did § 523(a)(6). Thus, the bankruptcy
court concluded, the willfulness issues litigated in
the prior action were not identical to the issue before
the bankruptcy litigation, namely, the application of
§ 523(a)(6)’s “willfulness and malicious” standard. As
to the common law claims, the earlier judgment set
forth no undisputed facts or conclusions of law with
respect to them, meaning they were neither essential
to the judgment nor entitled to preclusive effect.
Free to consider the § 523(a)(6) question anew, the
bankruptcy court found that David did not have the
level of intent required by the § 523(a)(6) unitary
standard and again dismissed MarketGraphics’s
adversarial complaint. Following that dismissal, we
granted MarketGraphics’s petition for permission to
file a direct appeal to this Court.
II.

ANALYSIS

By and large, today’s case poses two questions.
One, what is the proper standard to assess “willful
and malicious injury” under § 523(a)(6)? Answering
that question divided the courts below, as it has the

9a
circuit courts. Two, under whichever of those is the
correct standard, is the earlier judgment against
David entitled to preclusive effect in the present
proceeding?
A.
MarketGraphics Must Show That
Its Injury Was Both “Willful” And
“Malicious” Under § 523(a)(6).
Chapter 7 of the Bankruptcy Code offers a debtor a
fresh financial start at the close of his bankruptcy
proceeding. See Harris v. Viegelahn, 575 U.S. 510,
135 S. Ct. 1829, 1835, 191 L.Ed.2d 783 (2015). To
achieve that fresh start, the Bankruptcy Code allows
the debtor to discharge in bankruptcy debts owed to
his creditors. 11 U.S.C. § 727. And generally
speaking, most debts are dischargeable. See FCC v.
NextWave Pers. Commc’ns Inc., 537 U.S. 293, 306,
123 S.Ct. 832, 154 L.Ed.2d 863 (2003).
At issue here is one of the limited exceptions to the
general rule favoring discharge. That exception,
codified in § 523(a)(6) of the Bankruptcy Code,
applies to instances of “willful and malicious injury
by the debtor to another entity or to the property of
another entity.” 11 U.S.C. § 523(a)(6). How to apply
that standard, however, has been a point of
disagreement among the circuits. As did the most
recent district court decision below, some circuits
have essentially collapsed the terms “willful” and
“malicious,” applying a unitary test when assessing
the applicability of § 523(a)(6). See, e.g., McClendon
v. Springfield (In re McClendon), 765 F.3d 501, 505
(5th Cir. 2014) (applying the unitary standard and
“defining a willful and malicious injury as one where
there is either an objective substantial certainty of
harm or a subjective motive to cause harm”)

10a
(internal quotations omitted); Berrien v. Van Vuuren,
280 F. App’x 762, 766 (10th Cir. 2008) (same). Other
circuits utilize a two-pronged approach, where
“willful” and “malicious” remain separate elements
for the courts to review. See, e.g., Margulies v. USAA
Cas. Ins. Co. (In re Margulies), 721 F. App’x 98, 101
(2d Cir. 2018) (finding that “willful ... means
deliberate or intentional” and malicious means
“wrongful and without just cause or excuse, even in
the absence of personal hatred, spite, or ill-will”); see
also First Weber Grp., Inc. v. Horsfall, 738 F.3d 767,
774 (7th Cir. 2013); Fischer v. Scarborough (In re
Scarborough), 171 F.3d 638, 641 (8th Cir. 1999);
Petralia v. Jercich (In re Jercich), 238 F.3d 1202,
1208–09 (9th Cir. 2001); Maxfield v. Jennings (In re
Jennings), 670 F.3d 1329, 1334 (11th Cir. 2012).
1. Against the backdrop of this deep circuit split,
we have cited favorably to the two-pronged approach.
See Doe v. Boland (In re Boland), 946 F.3d 335, 338
(6th Cir. 2020) (“A debtor willfully and maliciously
injures a creditor if, acting without just cause or
excuse, he knows or is substantially certain that his
actions will cause injury.”). Today, we explicitly
adopt that test.
As an initial matter, the two-pronged approach
more squarely accords with customary rules of
statutory interpretation. The statute itself invokes
two concepts—”willful” and “malicious”—separated
by the word “and,” which ordinarily suggests that
both terms must be satisfied to exempt a debt from
discharge. OfficeMax, Inc. v. United States, 428 F.3d
583, 588 (6th Cir. 2005) (“ ‘[A]nd’ usually does not
mean ‘or.’ Dictionaries consistently feature a
conjunctive definition of ‘and’ as the primary

11a
meaning of the word.”). The use of “and” in
§ 523(a)(6), moreover, seemingly was no accident.
Compare § 523(a)(6) with § 1328(a)(4) in Chapter 13
of the Bankruptcy Code. Both sections utilize the
terms “willful” and “malicious” in describing injuries
that can result in non-dischargeable debts. But
§ 1328(a)(4), unlike § 523(a)(6), describes the
qualifying injury as “willful or malicious.” 11 U.S.C.
§ 1328(a)(4) (emphasis added); see Doe v. Boland (In
re Boland), 596 B.R. 532, 546 n.10 (6th Cir. B.A.P.
2019) (citing B.B. v. Grossman (In re Grossman), 538
B.R. 34, 39 (Bankr. E.D. Cal. 2015)). The use of “or”
in a parallel part of the Bankruptcy Code, and the
use of “and” here, should be given meaning. See FDA
v. Brown & Williamson Tobacco Corp., 529 U.S. 120,
133, 120 S.Ct. 1291, 146 L.Ed.2d 121 (2000) (“It is a
fundamental canon of statutory construction that the
words of a statute must be read in their context and
with a view to their place in the overall statutory
scheme.”) (quotation omitted).
2. To the same end, collapsing the terms “willful”
and “malicious” ignores the fact that, ordinarily
understood, those terms have separate meanings,
and separate purposes. Start with “willful.” “Willful”
conduct, for purposes of § 523(a) (6), requires “actual
intent to cause injury,” “not merely a deliberate or
intentional act that leads to injury.” Kawaauhau v.
Geiger, 523 U.S. 57, 61, 118 S.Ct. 974, 140 L.Ed.2d
90 (1998); see also In re Boland, 946 F.3d at 338 (“[A]
debtor might act intentionally but simply not know
that the act will cause injury.”) (emphasis added).
In holding that a debtor must have “actual intent to
cause injury” to have acted willfully, Geiger left
unresolved how to measure that intent. Some

12a
circuits have resolved the question by taking a broad
approach, utilizing both objective and subjective
tests. Under that standard, a debtor acts willfully
where his actions were objectively substantially
certain to cause harm or, alternatively, where the
debtor had a subjective motive to cause harm. See In
re McClendon, 765 F.3d at 505. This Circuit, on the
other hand, utilizes only a subjective standard,
asking whether the debtor himself was motivated by
a desire to inflict injury. See, e.g., Markowitz v.
Campbell (In re Markowitz), 190 F.3d 455, 464 (6th
Cir. 1999) (adopting the subjective approach, in
which a debt is nondischargeable under § 523(a)(6)
only if the debtor intended to cause harm or knew
that harm was a substantially certain consequence of
his or her behavior). Put differently, the debtor must
“desire[ ] to cause consequences of his act, or ...
believe[ ] that the consequences are substantially
certain to result from it.” Id. (internal citations
omitted). A debtor need not actually admit his intent;
intent may be inferred from the circumstances of the
injury. See, e.g., O’Brien v. Sintobin (In re Sintobin),
253 B.R. 826, 831 (Bankr. N.D. Ohio 2000).
3. Now the term “malicious.” In defining
“willful,” In re Markowitz inferred that, in the
§ 523(a)(6) setting, the term typically would be read
to mean something different than “malicious”: “From
the plain language of the statute, the judgment must
be for an injury that is both willful and malicious.
The absence of one creates a dischargeable debt.” 190
F.3d at 463 (emphasis added). Likewise, in a case
that pre-dates Geiger, we similarly suggested that
the two terms are not synonymous. Wheeler v.

13a
Laudani, 783 F.2d 610, 615 (6th Cir. 1986) (citations
omitted).
With that understanding in mind, in Wheeler we
defined “malicious,” for purposes of § 523(a)(6), to
mean “in conscious disregard of one’s duties or
without just cause or excuse ...” 783 F.2d at 615
(citations omitted); see also Ball v. A.O. Smith Corp.,
451 F.3d 66, 69 (2d Cir. 2006) (defining “malicious”
as “wrongful and without just cause or excuse, even
in the absence of personal hatred, spite, or ill-will”)
(quotations omitted); Sells v. Porter (In re Porter),
539 F.3d 889, 894 (8th Cir. 2008) (“Maliciousness is
conduct targeted at the creditor ... at least in the
sense that the conduct is certain or almost certain to
cause ... harm.”) (internal quotations omitted).
Unlike willful conduct, malicious conduct typically
does not require “a showing of specific intent to harm
another ....” In re Jennings, 670 F.3d at 1334; see also
Yeager v. Wilmers, 553 B.R. 102, 107 (S.D. Ohio
2015), aff’d 553 B.R. 102 (6th Cir. 2016). And as to
the requirement that malicious conduct be taken
“without just cause,” Black’s Law Dictionary defines
“just cause” as “[a] legally sufficient reason,” and
“excuse” as “[a] reason that justifies an act or
omission or that relieves a person of a duty.” Black’s
Law Dictionary (11th ed. 2019); see also Murray v.
Bammer (In re Bammer), 131 F.3d 788, 792 (9th Cir.
1997) (en banc) (reading “just” to be synonymous
with “honorable and fair in dealings and actions,
consistent with moral right, and valid within the
law”) (internal quotations and citations omitted).
4. As text and precedent thus reflect, assessing
whether an injury is “willful and malicious” under
§ 523(a)(6) is a two-pronged inquiry. A creditor must

14a
prove both elements before the debt may be
exempted from discharge. To be sure, in many cases,
the same facts that support a finding of willful
conduct under § 523(a)(6) will likewise support a
finding that the debtor acted with malice. See
Superior Metal Prods. v. Martin (In re Martin), 321
B.R. 437, 442 (Bankr. N.D. Ohio 2004) (noting that
in the “great majority of cases, the same factual
events that give rise to a finding of ‘willful’ conduct,
will likewise be indicative as to whether the debtor
acted with malice”). But in other cases, for example,
a debtor may act willfully, but not maliciously. See
id. (“[A] debtor, in certain limited situations, may be
found to have willfully converted a creditor’s
property, but not to have acted in a malicious
manner.”); see also Olmstead v. Newman (In re
Newman), 385 B.R. 799 (6th Cir. B.A.P. 2008)
(finding that debtor-employer, bought by another
company, willfully refused to pay creditor-employee
her vacation benefits, but did not act maliciously
because it “earnestly believed” that the new owners
were responsible for the creditor-employee’s
benefits); Fleming Mfg. Co. v. Keogh (In re Keogh),
509 B.R. 915, 939 (Bankr. E.D. Mo. 2014) (debtor
willfully breached fiduciary duties as company
president but did not act maliciously); In re Martin,
321 B.R. at 442 (citing John Deere Credit Serv. v.
McLaughlin (In re McLaughlin), 109 B.R. 14, 18
(Bankr. D.N.H. 1989) (finding willful but not
malicious conduct); then citing Rech v. Burgess
(Matter of Burgess), 106 B.R. 612, 616–20 (Bankr. D.
Neb. 1989) (same)). Lower courts thus must analyze
independently whether a debtor has willfully, and
also maliciously, injured the creditor before

15a
rendering a debt non-dischargeable in accordance
with § 523(a)(6).
B.
The Underlying Judgment Did Not
Preclude The Bankruptcy Court From
Independently
Analyzing
Whether
David’s Conduct Was Willful And
Malicious.
Having articulated the test in our Circuit for
applying the discharge exception in § 523(a)(6), we
must now consider whether the bankruptcy court
was nevertheless precluded from applying that test
in light of the judgment in the earlier unfair
competition
lawsuit
against
David,
which
MarketGraphics asserts carries preclusive effect.
Issue preclusion prevents a party from relitigating
issues of fact or law actually litigated and decided in
a prior proceeding. In re Markowitz, 190 F.3d at 461–
62. Neither the Supreme Court nor this Court has
resolved whether federal or state issue-preclusion
law governs a federal proceeding where a federal
court exercises federal jurisdiction over the federal
claims and supplemental jurisdiction over the state
law claims. In a somewhat similar circumstance, the
Supreme Court held that when a federal court
exercises diversity jurisdiction over a state law
claim, federal common law governs the issue
preclusion analysis. Semtek Int’l v. Lockheed Martin
Corp., 531 U.S. 497, 508, 121 S.Ct. 1021, 149 L.Ed.2d
32 (2001).
Whether Semtek suggests the same outcome when
a federal court exercises supplemental jurisdiction
was recently answered in the affirmative by the
Fourth Circuit. Hately v. Watts, 917 F.3d 770, 777

16a
(4th Cir. 2019); see also Wu v. Lin (In re Qiao Lin),
576 B.R. 32, 46 (Bankr. E.D.N.Y. 2017) (same);
Marini v. Adamo (In re Adamo), 560 B.R. 642, 647
(Bankr. E.D.N.Y. 2016). Both the Supreme Court
and Fourth Circuit, in reaching those respective
conclusions, emphasized that federal preclusion law
directs courts to apply “the law that would be applied
by state courts in the State in which the federal
diversity court sits,” so long as the state rule is not
“incompatible with federal interests.” Semtek, 531
U.S. at 508–09, 121 S.Ct. 1021 (citations omitted);
see also Hately, 917 F.3d at 777 (finding Semtek’s
rationale “equally persuasive in cases in which
federal courts exercise supplemental, as opposed to
diversity, jurisdiction over state law claims”).
We need not conclusively resolve this issue today.
As both relevant cases were litigated in federal court
in Tennessee, with claims raised under both
Tennessee and federal law, either Tennessee or
federal preclusion law would apply. And Tennessee
preclusion law is compatible with federal interests
(indeed, the respective preclusion rules are the
same). So there is little if any difference in the
preclusion analysis we might apply, and certainly no
tension between the two.
Whether we apply federal or Tennessee issuepreclusion law is thus of little practical concern in
this case; the tests are nearly the same. That is, a
party is barred from relitigating an issue already
decided when: (1) the issues are identical;
(2) the issue was actually litigated and decided
previously;
(3) the judgment in the earlier proceeding has
become final (Tennessee’s rule) or resolution of the

17a
issue was necessary and essential to a judgment on
the merits (our rule); (4) the party to be estopped was
a party to the prior litigation; and (5) the party to be
estopped had a full and fair opportunity to litigate
the issue. Compare Mullins v. State, 294 S.W.3d 529,
535 (Tenn. 2009), with Wolfe v. Perry, 412 F.3d 707,
716 (6th Cir. 2005). Critical to our resolution here
are the first two prongs of issue preclusion. That is,
whether David’s subjective intent, a requirement for
a finding of willfulness under § 523(a)(6), was
actually litigated in the underlying district court
proceedings, and, if so, whether the factual issue
litigated there was identical to the issue resolved in
the district court.
1. For issue preclusion to apply for purposes of
satisfying § 523(a)(6), the issue in question must
have been “actually litigated and decided” in the
earlier proceeding. See Wolfe, 412 F.3d at 716. With
respect to § 523(a)(6)’s “willful and malicious”
requirement, we have explained that assessing
willful conduct requires examining the debtor’s
subjective intent. For preclusion to apply here, then,
the parties must have actually litigated and decided
in the earlier proceeding that David acted with
subjective intent to harm MarketGraphics, the same
issue at play in the underlying proceedings here. See
MarketGraphics Research Grp., Inc. v. Berge (In re
Berge), No. 313-07626, 2018 WL 3219626, at *2
(Bankr. M.D. Tenn. June 29, 2018) (“The issue is
whether that judgment included a finding that the
debtor intended harm to MarketGraphics or was
substantially certain that harm would occur as
required under 11 U.S.C. § 523(a) (6).”). Following its
review of the underlying judgment, the bankruptcy

18a
court concluded that such evidence was absent from
the earlier district court proceeding: “[T]here is no
clear finding” that David “desired to cause the
consequences of his act or believed that the injuries
were substantially certain to result from it,” nor are
there “factual allegations in the underlying
complaint” to that effect. Id. at *3.
We agree. The record in the district court litigation
was sparse. The district court judgment included a
determination that David and the Realysis entities
“willfully or knowingly” violated the TCPA and
willfully
infringed
upon
MarketGraphics’s
copyrighted works. But outside the judgment, the
record contains no findings concerning David’s
intent. Among other omissions, there is no indication
that whether David participated in the creation and
management of Realysis, and whether he did so with
the intent to injure MarketGraphics, was actually
litigated or decided in the district court.
Nor did MarketGraphics present undisputed facts
from the earlier district court proceeding that
conclusively established David’s intent to injure. To
be sure, as the earlier record reflects, David had a
long history of supporting Don’s work, both with
MarketGraphics and Realysis. And as to the latter,
the record reveals that David was named as the sole
member and officer or manager of Realysis of
Memphis, LLC, one of three Realysis entities created
by Don. But nothing in the district court record
shows that David had a role in organizing the
Realysis entities or that he knew that Realysis of
Memphis was created in his name.
Upon Realysis’s creation, emails and letters were
sent from David’s Realysis email address, under his

19a
name, in a not-so-subtle effort to solicit
MarketGraphics’s customers. Here again though, the
letters primarily discussed Don’s (not David’s)
relationship with MarketGraphics as well as Don’s
knowledge of the industry. True, only David’s name
was provided in response to an interrogatory request
to “[i]dentify each person who has sold, or attempted
to sell, goods or services related to the Memphis
Metro Area on behalf of any Realysis Entity.” But in
the statement of facts that MarketGraphics
submitted when it moved for summary judgment, the
company indicated that Realysis of Memphis, the
entity in David’s name, had two offices: one at Don’s
house and another in a space Don rented in his
name. All of the data Realysis collected was in a
computer
at
Don’s
house.
And,
perhaps
unsurprisingly, Realysis customers were more likely
to call Don (rather than David) with questions
regarding the Realysis business.
Nor does the record contain factual findings
describing whether David willfully, with subjective
intent, infringed MarketGraphics’s copyrights. The
defendants
there
rightly
admitted
that
MarketGraphics’s works had been registered with
the Register of Copyrights and contained some
material subject to protection under the Copyright
Act. Yet they also asserted that “[a]ll materials
claimed by MarketGraphics are neither trade secrets
nor copyrighted and exists [sic] in the public
domain.” These latter assertions thus undermine any
conclusion supporting a subjective intent to infringe
upon MarketGraphics’s copyrights.
Perhaps most revealing is the judgment submitted
in the underlying litigation. MarketGraphics drafted

20a
and submitted the proposed judgment to the district
court, and the district court adopted that order
without change. MarketGraphics did so with the
benefit of knowing that the judgment could be the
subject of a bankruptcy proceeding; David’s parents,
after all, had already filed for bankruptcy during the
pendency of the district court action. Yet even armed
with that knowledge, MarketGraphics did not
include any findings in the judgment revealing
David’s subjective intent to injure MarketGraphics.
All told, to the extent David was involved in the
Realysis enterprise, the factual findings and record
in the district court action do not reflect a subjective
intent on David’s part to injure MarketGraphics. For
that reason, the prior judgment and the underlying
record do not preclusively establish that David acted
willfully, with subjective intent, as required to
satisfy § 523(a)(6)’s discharge exception.
2. Whatever the nature of the record and general
findings in the earlier judgment, MarketGraphics
responds that the ultimate finding in favor of the
company on its TCPA and copyright-infringement
claims proves David’s subjective intent to harm,
thereby satisfying the willfulness prong of
§ 523(a)(6). That argument, however, is at odds with
case law interpreting those statutes. Neither the
state nor federal law at issue required
MarketGraphics to prove that David acted with
subjective intent to harm the company.
Start with the TCPA. The TCPA creates a private
right of action for “[a]ny person who suffers an
ascertainable loss of money or property, real,
personal, or mixed, or any other article, commodity,
or thing of value wherever situated, as a result of the

21a
use or employment by another person of an unfair or
deceptive act or practice ....” Tenn. Code Ann. § 47–
18– 109(a)(1). The TCPA’s scope is “much broader”
than that of common law fraud and is “not limited to
misrepresentations that are fraudulent or willful.”
Tucker v. Sierra Builders, 180 S.W.3d 109, 115
(Tenn. Ct. App. 2005). Thus, “[t]he defendant’s
conduct need not be willful or even knowing.” Id. But
if a defendant does willfully or knowingly violate the
TCPA, the TCPA provides for treble damages. § 47–
18– 109(a)(3); Tucker, 180 S.W.3d at 115–16. Here,
the judgment against David was a treble damages
award for a “willful or knowing violation” of the
TCPA.
MarketGraphics argues that a “willful or knowing”
TCPA violation requires more than simply intending
an act that violates the TCPA. Instead, a “willful or
knowing” TCPA violation, in its view, requires a
subjective intent to injure— the same intent required
under § 523(a)(6).
“Willful or knowing” is a disjunctive test. Even if
the TCPA term “willful” satisfies § 523(a)(6), a
“knowing” TCPA violation must also amount to a
“willful and malicious injury.” For purposes of the
TCPA, the term “knowingly” has been commonly
recognized as a lower standard than “willful.” See,
e.g., Tucker, 180 S.W.3d at 115–16 (“[D]efendant’s
conduct need not be willful or even knowing, but if it
is, the TCPA permits the trial court to award treble
damages.” (emphasis added)). The TCPA defines
“knowingly” as “actual awareness of the falsity or
deception, but actual awareness may be inferred
where objective manifestations indicate that a
reasonable person would have known or would have

22a
had reason to know of the falsity or deception.” Tenn.
Code Ann. § 47-18-103(11) (emphasis added).
Proving “knowing” conduct under the TCPA, in
other words, merely requires showing that a
reasonable person, in the circumstance in question,
would have known or had reason to know about the
act. See id. Subjective intent to injure, as required by
§ 523(a)(6), is not required to commit a knowing
violation of the TCPA. That leaves considerable
doubt over whether the district court’s underlying
judgment made any finding as to David’s level of
intent. Compare Couch v. Panther Petro., LLC (In re
Couch), 704 F. App’x 569, 571– 72 (6th Cir. 2017)
(finding a state court judgment preclusive where the
state court specifically found that defendant owed
treble damages for a TCPA claim because he
“intentionally, willfully, and maliciously” injured
plaintiffs), with McGee v. Marcum, 184 F. App’x 464,
466 (6th Cir. 2006) (finding that although the
defendant pleaded guilty to a willful violation of the
Federal Mine Safety and Health Act, there was no
evidence in the record that defendant desired to
injure plaintiff, and therefore the district court
judgment did not preclude the bankruptcy court from
independently analyzing the judgment under
§ 523(a)(6)). Without a subjective intent to injure,
there can be no willful injury under § 523(a)(6).
Recently, we held that intent to injure for purposes
of § 523(a)(6) can sometimes be inferred from a
knowing act. In re Boland, 946 F.3d at 338, 341–42.
In Boland, a defense attorney sought discharge of
judgments against him resulting from his creation of
child pornography. In a misguided defense of his
clients, the attorney had manipulated stock images

23a
of children so that they appeared to be engaged in
sex acts, to make the point that “there’s just no way
of knowing whether real children are depicted in
pornography found on the internet.” Id. at 337. In his
bankruptcy proceedings, the debtor-attorney argued
that he did not intend to harm the children through
his actions. There, the intent to injure was implicit
because creating child pornography is itself the
injury. Id. at 341–42. Not so here. A knowing
violation of consumer protection laws does not carry
the same inference of intent as the knowing creation
of child pornography. Were we broadly to presume
intent to injure from a variety of actions, exemptions
to discharge—which are disfavored —would abound
in bankruptcy proceedings. We are also mindful of
our precedent requiring subjective, not objective,
intent to injure. See In re Markowitz, 190 F.3d at
464.
Further, under the two-pronged § 523(a)(6) “willful
and malicious injury” test, a “willful or knowing”
TCPA violation must also be “malicious” for the
judgment to be exempt from discharge. “ ‘Malicious’
means in conscious disregard of one’s duties or
without just cause or excuse.” Wheeler, 783 F.2d at
615; Tomlin v. Crownover (In re Crownover), 417
B.R. 45, 57 (Bankr. E.D. Tenn. 2009) (“The intent to
cause injury to another person or another person’s
property is malicious unless the debtor had a just
cause or excuse for acting with the intent to cause
the injury.”). For issue preclusion to apply, then, a
“willful or knowing” TCPA violation must require the
conscious disregard of a duty or lack of just cause or
excuse. The TCPA requires no such thing. To the
contrary, under the TCPA, a court “may consider,

24a
among other things” the debtor’s competence and
good faith, along with the nature of the act and the
degree of harm. Tenn. Code Ann. § 47–18–109(a)(4)
(emphasis added). Under this permissive framework,
it is impossible to know, without additional fact
finding, why the court ordered treble damages.
Therefore, under either the “willfulness” or “malice”
prongs, a “willful or knowing” TCPA violation does
not, on its face, carry preclusive effect.
So too for MarketGraphics’s copyright-infringement
claim. To establish a claim for direct copyright
infringement, a plaintiff must show that he owns the
copyright and that the defendant copied protected
elements of his work. Lexmark Int’l, Inc. v. Static
Control Components, Inc., 387 F.3d 522, 534 (6th Cir.
2004). A defendant willfully commits copyright
infringement when he knowingly or recklessly copies
another’s work. Zomba Enters., Inc. v. Panorama
Records, Inc., 491 F.3d 574, 585 (6th Cir. 2007)
(willfulness includes reckless disregard of plaintiff’s
property rights).
That recklessness can satisfy the willfulness
requirement suggests that a copyright-infringement
judgment does not always prove subjective intent to
harm, something the Ninth Circuit has already
recognized. See Barboza v. New Form, Inc., 545 F.3d
702 (9th Cir. 2008). At issue in Barboza was a jury
instruction from an earlier proceeding that stated
that infringement was “willful” if defendants “knew
that they were infringing the [Appellee’s] copyrights
or that they acted with reckless disregard as to
whether they were doing so.” Id. at 704. Where “a
finding of ‘willful’ copyright infringement is based
merely on reckless behavior,” the Ninth Circuit

25a
explained, “the resulting statutory award would not
fit within the § 523(a)(6) exemption.” Id. at 708
(noting that Geiger specifically limited willful
injuries under § 523(a)(6) to deliberate or intentional
injuries).
We agree with that approach. Because a finding of
“willful” copyright infringement can be predicated
upon merely reckless behavior, a copyrightinfringement judgment does not necessarily prove
the infringer’s subjective intent to harm. For
purposes of issue preclusion, in other words,
MarketGraphics’s judgment did not necessarily
litigate and decide David’s subjective intent. It
follows that the bankruptcy court was not precluded
from finding that § 523(a)(6) was inapplicable to
MarketGraphics’s underlying judgment, and thus
finding the judgment debt dischargeable. See Geiger,
523 U.S. at 61–64, 118 S.Ct. 974 (“[D]ebts arising
from recklessly or negligently inflicted injuries do
not fall within the compass of § 523(a)(6).”).
Our decision in Bridgeport Music, Inc. v. UMG
Recordings, Inc., does not say otherwise. In
Bridgeport, the alleged copyright infringer asserted a
good faith defense against a finding of willfulness.
585 F.3d 267, 279 (6th Cir. 2009). MarketGraphics
reads Bridgeport to stand for the proposition that a
finding of willful infringement can only be predicated
on recklessness if the defendant raises the “good
faith” defense. But that was not our holding. There,
we rejected the defendant’s challenge to the jury
instruction on willful infringement. Although the
district court, we concluded, erred by omitting the
term “reckless” in the instructions, the “knowledge”
aspect of “reckless” was nevertheless included in the

26a
good-faith-defense instruction, meaning that when
reviewing the instructions as a whole, the jury
ultimately received sufficient instructions. Id. at
278–79. That decision, however, says nothing about
limiting
the
reckless
aspect
of
copyright
infringement to instances where the good faith
defense is raised.
At day’s end, then, the finding that David was
liable for willful copyright infringement, like the
TCPA finding, does not support the application of
issue preclusion in this proceeding. Nothing in those
findings or the proceeding more broadly reflects
resolution of the question of David’s subjective intent
to injure. As we cannot say with conviction that
subjective intent was “actually litigated and decided
previously,” we cannot give the underlying judgment
preclusive effect for purposes of discharging
MarketGraphics’s claim under § 523(a)(6).
Nor does the underlying judgment provide
preclusive effect from discharge for the common law
claims asserted by Market Graphics. Even assuming
that the common law claims facially demonstrate
“willful and malicious” injury, the underlying
judgment is too vague to carry preclusive effect.
The district court in the underlying federal action
ordered damages for copyright infringement, a TCPA
violation, and an unknown source of “other
compensatory damages.”
Theoretically, the common law claims might be the
basis for the district court’s award for “other
compensatory damages.” But we have no way of
knowing, as the district court did not even analyze
those claims. The lone issue the district court
analyzed was its basis for imposing a permanent

27a
injunction. In MarketGraphics’s view, the district
court’s permanent injunction analysis doubles as its
analysis of the common law claims. But even
accepting that as true, there is no way to parse out
the amount of damages for each of the three
purported common law violations. Neither the
complaint nor the judgment lists damages figures for
each of the claims— leaving it to conjecture as to
which claims make up which parts of the “other
compensatory damages.” In view of these
uncertainties, preclusion does not apply to the
common law claims either.
C.
The Bankruptcy Court Properly
Declined To Apply The Doctrine Of
Judicial Estoppel.
Short of formal preclusion, MarketGraphics claims
that, at the very least, David should be “judicially
estopped” from arguing in this proceeding that he
lacked
the
subjective
intent
to
harm
MarketGraphics. To the company’s mind, David
engaged in something of a “bait and switch.” The
Berges, says MarketGraphics, asserted in the initial
proceeding that David (not Don) was the culprit
behind Realysis’s unfairly competitive efforts, with
David then changing his tune in this proceeding,
laying blame at Don’s feet.
Judicial estoppel is an equitable doctrine invoked
to preserve the integrity of our judicial system. New
Hampshire v. Maine, 532 U.S. 742, 749–50, 121 S.Ct.
1808, 149 L.Ed.2d 968 (2001). Generally speaking,
the doctrine serves to prevent a party from engaging
in “cynical gamesmanship” by arguing and prevailing
on one position before one court, and then arguing
the opposite position before another. Lorillard

28a
Tobacco Co. v. Chester, Willcox & Saxbe, LLP, 546
F.3d 752, 757 (6th Cir. 2008) (internal citations
omitted). For judicial estoppel to apply, three
features should be present: (1) the party’s prior and
later positions are clearly inconsistent; (2) the earlier
court accepted the prior position; and (3) the
opposing party would be unfairly disadvantaged by
the subsequent court accepting the party’s later,
inconsistent position. New Hampshire, 532 U.S. at
750–51, 121 S.Ct. 1808 (internal quotation marks
and citations omitted); see also Lorillard Tobacco
Co., 546 F.3d at 757 (citing Excel Energy, Inc. v.
Smith (In re Commonwealth Inst. Sec.), 394 F.3d
401, 406 (6th Cir. 2005)).
Those features are absent here. First, while David’s
respective positions regarding who operated Realysis
were in some tension, they were not “clearly
inconsistent.” To be sure, David’s explanation
concerning his limited role in the underlying conduct
in the bankruptcy court was at odds in some respects
with the Berge family’s position in the district court
that David (not Don) was the mastermind behind
Realysis. But it was always the case that Don had
some involvement with Realysis, and David’s
position in the bankruptcy court was influenced by
responding to the factual determinations made
previously by the district court. To that same end,
the record reflects that the district court, in the
underlying litigation, did not appear to accept
David’s position there. Indeed, the district court
seemingly rejected the notion that David was the
responsible party. At the preliminary injunction
hearing, the district court apparently believed that
Don was responsible for the operation of Realysis.

29a
Nor, in any event, has MarketGraphics explained
how David’s purported prior assertions impacted or
otherwise unduly prejudiced the company in the
current bankruptcy proceeding. In the proceedings
below, MarketGraphics was unencumbered in
making its evidentiary case. Among its efforts, the
company introduced at trial the interrogatory
response stating that David was the only person who
sold, or attempted to sell, goods or services on behalf
of Realysis. It likewise introduced emails and letters
under
David’s
name
from
Realysis
to
MarketGraphics’s clients. And it was able to question
David about them. As such, the bankruptcy court
properly rejected MarketGraphics’s request to invoke
judicial estoppel.
CONCLUSION
For these reasons, we AFFIRM the judgment of
the bankruptcy court.

30a
APPENDIX B
_________
UNITED STATES BANKRUPTCY COURT
FOR THE MIDDLE DISTRICT OF TENESSEE
_______
IN RE: DAVID PETER BERGE,
Debtor.
_______
MARKETGRAPHICS RESEARCH GROUP, INC.,
Plaintiff,
v.
DAVID PETER BERGE,
Defendant.
_______
Case No. 313-07626
_______
Adv. No. 313-90400
_______
Signed: June 28, 2018
_______
MEMORANDUM OPINION
_______
Marian F. Harrison, U.S. Bankruptcy Judge
This matter
MarketGraphics

is

before
Research

the Court
Group,

upon
Inc.’s

31a
(“MarketGraphics”) renewed motion for summary
judgment based on collateral estoppel. For the
following
reasons,
the
Court
finds
that
MarketGraphics’ motion for summary judgment
should be denied.
I.

PROCEDURAL BACKGROUND

Prior to bankruptcy, the District Court entered
judgment in favor of MarketGraphics against the
debtor in the amount of $332,314.94, jointly and
severally with three other defendants. The District
Court found in a memorandum and order prepared
by MarketGraphics’ counsel on the default summary
judgment that the debtor “willfully or knowingly
violated the Tennessee Consumer Protection Act”
(“TCPA”) and that the debtor’s copyright
infringement was willful.
After the debtor filed his bankruptcy petition,
MarketGraphics filed this adversary complaint to
determine the dischargeability of its claim pursuant
to 11 U.S.C. § 523(a)(6). MarketGraphics sought
summary judgment relief based on collateral
estoppel resulting from the District Court’s action.
This Court denied the motion, and MarketGraphics
filed an interlocutory appeal. After MarketGraphics’
appeal was dismissed by the District Court and the
Sixth Circuit Court of Appeals, this Court conducted
a trial and determined that the debt owed to
MarketGraphics was dischargeable and dismissed
MarketGraphics’ complaint. MarketGraphics again
appealed. The District Court affirmed the findings of
this Court following trial but reversed this Court’s
decision on the initial summary judgment decision
and remanded the case “to determine the matter of
issue preclusion on first impression.” To decide

32a
whether issue preclusion should apply, the District
Court remanded the case to determine whether the
District Court in the underlying judgment held that
the debtor willed or desired harm or believed that
injury was substantially certain to occur as a result
of his behavior. In MarketGraphics’ renewed motion
for summary judgment, it asserts that issue
preclusion applies to the District Court’s findings
regarding the TCPA, copyright infringement, and
common law claims.
II.

DISCUSSION
A.

Summary Judgment Standards

Pursuant to Federal Rule of Civil Procedure 56(a),
as incorporated by Federal Rule of Bankruptcy
Procedure 7056, an entry of summary judgment is
mandated “if the movant shows that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
When considering a motion for summary judgment,
the Court “must view the evidence and draw all
reasonable inferences in favor of the nonmoving
party.” Browning v. Levy, 283 F.3d 761, 769 (6th Cir.
2002) (citation omitted). The Court does not “ ‘weigh
the evidence and determine the truth of the matter
but ... determine[s] whether there is a genuine issue
for trial.’ ” Id. (citation omitted).
B.

Issue Preclusion

Issue preclusion prevents a party from relitigating
issues that were actually litigated in a prior
proceeding. Markowitz v. Campbell (In re
Markowitz), 190 F.3d 455, 461 (6th Cir. 1999)
(citations omitted). “Principles of collateral estoppel
apply in non-dischargeability actions.” Livingston v.

33a
Transnation Title Ins. Co. (In re Livingston), 372
Fed. App’x 613, 617 (6th Cir. 2010) (unpublished)
(citations omitted).
Whether federal or state law applies when seeking
collateral estoppel from a federal court judgment
appears to be in a state of confusion. Some courts
hold that collateral estoppel application from any
federal court judgment rests on federal preclusion
law. Trost v. Trost (In re Trost), 545 B.R. 193, 203
(Bankr. W.D. Mich. 2016) (citations omitted); J.Z.G.
Res., Inc. v. Shelby Ins. Co., 84 F.3d 211, 213-14 (6th
Cir. 1996) (citations omitted). The Supreme Court
has stated that federal court judgments based on
state law claims in diversity actions rely on state
issue preclusion standards, although the opinion
noted that the state and federal standards for issue
preclusion were similar. Semtek Int’l Inc. v. Lockheed
Martin Corp., 531 U.S. 497, 508 (2001). In this case,
federal and state law are almost identical. The
federal law of issue preclusion requires:
(i) the issue in the subsequent litigation is
identical to that resolved in the earlier
litigation;
(ii) the issue was actually litigated and decided
in the prior action;
(iii) the resolution of the issue was necessary
and essential to a judgment on the merits in
the prior litigation;
(iv) the party to be estopped was a party to the
prior litigation (or in privity with such a
party); and
(v) the party to be estopped had a full and fair
opportunity to litigate the issue.

34a
In re Trost, 545 B.R. at 204 (citing Verizon North Inc.
v. Strand, 367 F.3d 577, 583 (6th Cir. 2004) ).
Tennessee law applies essentially the same
standards for collateral estoppel as federal law.
Mullins v. State, 294 S.W.3d 529, 535 (Tenn. 2009).
Accordingly, it makes no difference which law is
applied. This opinion relies on the federal standards
recited above.
C.

11 U.S.C. § 523(a)(6)

Exceptions to discharge are to be strictly construed.
Gleason v. Thaw, 236 U.S. 558, 562 (1915). Pursuant
to 11 U.S.C. § 523(a)(6), a debt is nondischargeable
when the debt is “for willful and malicious injury by
the debtor to another entity or to the property of
another entity.” Therefore, “nondischargeability
takes a deliberate or intentional injury, not merely a
deliberate or intentional act that leads to injury.”
Kawaauhau v. Geiger, 523 U.S. 57, 61 (1998).
“[U]nless ‘the actor desires to cause the consequences
of his act, or ... believes that the consequences are
substantially certain to result from it,’ he has not
committed a ‘willful and malicious injury’ as defined
under § 523(a)(6).” In re Markowitz, 190 F.3d 455,
464 (internal citation omitted).
D.
Act

Tennessee

Consumer

Protection

In the present case, the District Court ruled that
“pursuant to Tennessee Code Ann. § 47-18-109(a)(3),
that the Defendants ... willfully or knowingly
violated the Tennessee Consumer Protection Act,”
and awarded treble damages to MarketGraphics.
The issue is whether that judgment included a
finding that the debtor intended harm to

35a
MarketGraphics or was substantially certain that
harm would occur as required under 11 U.S.C.
§ 523(a)(6). If so, then MarketGraphics is entitled to
collateral estoppel and summary judgment on its
TCPA claim.
To recover under the TCPA, a plaintiff must prove
that the defendant engaged in an unfair or deceptive
act or practice declared unlawful by the TCPA and
that the defendant’s conduct caused an ascertainable
loss of money or property. T.C.A. § 47-18-109(a)(1).
Under the TCPA, a defendant’s conduct need not be
willful or even knowing, but if it is, the trial court is
permitted to award treble damages under T.C.A.
§ 47-18-109(a)(3). Tucker v. Sierra Builders, 180
S.W.3d 109, 115-16 (Tenn. Ct. App. 2005) (citations
omitted).
The term “willful” is not defined in the TCPA, but
courts have interpreted the “willful” requirement as
“nothing more than intentional.” Akers v. Bonifasi,
629 F. Supp. 1212, 1223 (M.D. Tenn. 1984) (citation
omitted). See also Mills v. Partin, No. M2008-00136COA-R3-CV, 2008 WL 4809135, at *7 (Tenn. Ct. App.
Nov. 4, 2008) (citing Akers). The term “knowing” is
defined as “actual awareness of the falsity or
deception, but actual awareness may be inferred
where objective manifestations indicate that a
reasonable person would have known or would have
had reason to know of the falsity or deception.”
T.C.A. § 47-18-103(10).
MarketGraphics cites several cases in support of its
assertion that “willful and knowing” under the TCPA
is the same as that required under 11 U.S.C.
§ 523(a)(6) (a finding that the actor desires to cause
the consequences of his act or believes that the

36a
consequences are substantially certain to result from
it). The problem is that the cases cited by
MarketGraphics do not address the meaning of
“willful and knowing” under the TCPA.1
MarketGraphics also rejects as simply wrong the
opinion in Tomlin v. Crownover (In re Crownover),
417 B.R. 45 (Bankr. E.D. Tenn. 2009). In Crownover,
the plaintiffs’ pre-petition state court judgment
against the debtor was, in part, for violations of the
TCPA, and the plaintiffs sought to use the doctrine of
collateral estoppel to obtain summary judgment
against the debtor on their dischargeability claims.
In deciding that the judgment for violations of the
TCPA was not entitled to collateral estoppel with
regard to nondischargeability under 11 U.S.C.
§ 523(a)(6), the court pointed out that “willful” under
the TCPA means the debtor intended to commit the
acts, id. at 58, but 11 U.S.C. § 523(a)(6) requires a
finding that the debtor intended his actions to bring
about the harm suffered. Id. As in Crownover, the
District Court could have made a specific finding
that the debtor violated the TCPA with the intent to
cause harm or that the debtor believed that the harm
1

See Hughes v. Metro. Gov’t of Nashville & Davidson Cty.,
340 S.W.3d 352, 371 (Tenn. 2011) (defendant who intended to
create apprehension of harm in plaintiff has committed
intentional tort of assault); Mix v. Miller, 27 S.W.3d 508, 515
(Tenn. Ct. App. 1999) (reviewing intent under unrelated
statute); Steier v. Best (In re Best), 109 F. App’x 1, 5 (6th Cir.
2004) (“Debts arising out of these types of misconduct satisfy
the willful and malicious injury standard: intentional infliction
of emotional distress, malicious prosecution, conversion,
assault, false arrest, intentional libel, and deliberately
vandalizing the creditor’s premises.”).

37a
was substantially certain to result from his actions.
The underlying complaint did not include specific
factual allegations, analogous to 11 U.S.C.
§ 523(a)(6), and the District Court judgment only
states that the debtor violated the TCPA.
The TCPA does not require a finding that the actor
desired to cause the consequences of his act or
believed that the injuries were substantially certain
to result from it, and there is no clear finding of such
in the underlying District Court judgment or factual
allegation in the underlying complaint.
Accordingly,
summary
judgment
MarketGraphics’ TCPA claim must be denied.
E.

on

Copyright Infringement

The same is true as to the copyright infringement
claim. In the underlying judgment, the District Court
held that the debtor’s “infringement was willful.” To
establish a copyright infringement claim, a plaintiff
must show “ownership of a valid copyright” and that
the “defendant copied protectable elements of the
work.” Lexmark Int’l, Inc. v. Static Control
Components, Inc., 387 F.3d 522, 534 (6th Cir. 2004).
In Princeton Univ. Press v. Michigan Document Serv.
Inc., 99 F.3d 1381 (6th Cir. 1996), the Sixth Circuit
Court of Appeals defined willful in the context of
copyright infringement:
“In other contexts [‘willfulness’] might simply
mean an intent to copy, without necessarily an
intent to infringe. It seems clear that as here
used, ‘willfully’ means with knowledge that
the defendant’s conduct constitutes copyright
infringement. Otherwise, there would be no
point in providing specially for the reduction of

38a
minimum awards in the case of innocent
infringement, because any infringement that
was nonwillful would necessarily be innocent.
This seems to mean, then, that one who has
been notified that his conduct constitutes
copyright infringement, but who reasonably
and in good faith believes the contrary, is not
‘willful’ for these purposes.” Melville B.
Nimmer & David Nimmer, 3 Nimmer on
Copyright § 14.04 [B] [3] (1996).
... [T]he issue is whether the copyright law
supported the plaintiffs’ position so clearly
that the defendants must be deemed as a
matter of law to have exhibited a reckless
disregard of the plaintiffs’ property rights.
Id. at 1392. See also Digital Filing Sys., L.L.C. v.
Agarwal, No. 03-70437, 2005 WL 1702954, at *2
(E.D. Mich. July 20, 2005) (citing Princeton Univ.
Press); Zomba Enters. Inc. v. Panorama Records,
Inc., 491 F.3d 574, 585 (6th Cir. 2007) (willfulness
includes reckless disregard of plaintiffs’ property
rights); Abercrombie & Fitch Trading Co. v.
Importrade
USA,
Inc.,
No.
07-23212-CIVALTONAGA/ Brown, 2009 WL 10668408, at *2 (S.D.
Fla. Aug. 18, 2009) (citations omitted) (willful
copyright infringement requires actual knowledge or
reckless disregard).
In Barboza v. New Form, Inc., 545 F.3d 702 (9th
Cir. 2008), the court considered the relationship
between the Copyright Act and 11 U.S.C. § 523(a)(6):
[I]n the District Court Action, the jury was
instructed that the infringement was willful if
Appellants “knew that they were infringing
the [Appellee’s] copyrights or that they acted

39a
with reckless disregard as to whether they
were doing so.” The jury found that Appellants
willfully infringed Appellee’s copyright by
making unlawful copies of ten India Maria
Pictures. However, the Bankruptcy Court had
no way to determine whether the jury found
the willful infringement based on a reckless
disregard or a knowing violation of Appellee’s
copyright.
Even though recklessness is sufficient for a
finding of willful copyright infringement, the
Supreme Court has clearly held that injuries
resulting from recklessness are not sufficient
to be considered willful injuries under § 523(a)
(6) of the Bankruptcy Code and are therefore
insufficient to merit an exemption to
dischargeability. Geiger, 523 U.S. at 60–61,
118 S. Ct. 974. In Geiger, the Supreme Court
specifically limited “willful” injuries under
§ 523(a)(6) to “deliberate or intentional”
injuries. Id. at 61, 118 S. Ct. 974. Therefore, if
a finding of “willful” copyright infringement is
based merely on reckless behavior, the
resulting statutory award would not fit within
the § 523(a)(6) exemption.
Id. at 708 (emphasis added). See also Unicolors, Inc.
v. Urban Outfitters, Inc., 853 F.3d 980, 992 (9th Cir.
2017) (citation omitted) (“a finding of willful
infringement does not require a showing of actual
knowledge; a showing of recklessness or willful
blindness is sufficient”).
In the present case, the underlying District Court
judgment is not entitled to issue preclusion on the
issue of dischargeability because the term “willful or

40a
knowing” under the Copyright Act does not equate
with a desire to cause the consequences of an act or a
belief that the consequences are substantially certain
to result from it.
F.

Common Law Allegations

Several common law claims were made by the
plaintiff, including unfair competition, civil
conspiracy, and interference with business relations.
The District Court Judgment set forth no undisputed
facts or conclusions of law on these claims, and
damages were not awarded in the judgment for these
claims. Accordingly, any reference to these
allegations in the District Court’s order were not
essential to its judgment. See SunTrust Bank v.
Bennett (In re Bennett), 517 B.R. 95, 106 (Bankr.
M.D. Tenn. 2014) (“The party asserting the doctrine
of collateral estoppel in seeking to bar litigation of an
issue has the burden of proving that the issue was
necessary to the judgment.”); In re Trost, 545 B.R.
193, 203.
III.

CONCLUSION

Accordingly, the Court finds that the plaintiff’s
motion for summary judgment should be denied.

41a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISON
_______
MARKETGRAPHICS RESEARCH GROUP, INC.,
Appellant,
v.
DAVID PETER BERGE,
Appellee.
_________
No. 3:16–cv–01191
_________
Filed: March 24, 2017
_________
MEMORANDUM OPINION
_________
WAVERLY D. CRENSHAW,
STATES DISTRICT JUDGE

JR.,

UNITED

MarketGraphics
Research
Group,
Inc.
(“MarketGraphics”) appeals the United States
Bankruptcy Court for the Middle District of
Tennessee’s ruling that David Peter Berge’s debt to
MarketGraphics is dischargeable under Chapter 7 of
the Bankruptcy Act. The sole issue on appeal is
whether the injury Berge caused MarketGraphics
was “malicious” within the meaning of 11 U.S.C.

42a
§ 523(a)(6). The Court has reviewed the record and
determined that oral argument is not necessary
because “the facts and legal arguments are
adequately presented in the briefs and record, and
the decisional process would not be significantly
aided by oral argument.” FED. R. BANK. P.
8019(b)(3); LR 81.01(b). For the following reasons,
the judgment of the Bankruptcy Court is
AFFIRMED IN PART and VACATED IN PART,
and this case is REMANDED to the Bankruptcy
Court for further proceedings.
I.

FACTS AND PROCEDURAL HISTORY

Donald Berge, with the assistance of his son David
Berge, worked as a licensee for MarketGraphics from
1997 to 2012. MarketGraphics Research Grp., Inc. v.
Berge, No. 3:13-cv-00001, 2014 WL 2155009, at *1
(M.D. Tenn. May 22, 2014). During this period,
Donald Berge had “access to confidential information
related to MarketGraphics’ business, he received
specialized training in MarketGraphics’ proprietary
systems, and Memphis-area customers came to
associate him with MarketGraphics’ business.” Id.
MarketGraphics had “(1) a valid, enforceable, and
registered copyright in the Memphis Works (reports
to Memphis-area customers), and (2) a protectable
business interest in its Memphis clients.” Id.
In September 28, 2012, Donald and David Berge
left MarketGraphics and opened a competing
business that provided essentially the same services
as MarketGraphics. Id. As a result of actions by the
competing business, MarketGraphics filed suit
against Donald and David Berge, as well as other
defendants, alleging (1) copyright infringement of the
Memphis Works; (2) copyright infringement of

43a
website images; (3) trademark infringement; (4)
cybersquatting
as
to
marketgraphics.net;
(5)
cybersquatting
as
to
marketgraphicsofmemphis.com;
(6)
unfair
competition; (7) breach of contract; (8) breach of
covenant not to compete; (9) breach of covenant of
good faith and fair dealing; (10) violation of the
Tennessee
Consumer
Protection
Act;
(11) interference with business relations; and
(12) conspiracy. MarketGraphics Research Grp., Inc.
v. Berge, No. 3:13–cv– 00001, ECF No. 1, 2013 WL
146122 (M.D. Tenn. Jan. 2, 2013).
On August 22, 2013, the Honorable Aleta A.
Trauger
entered
judgment
in
favor
of
MarketGraphics against David Berge in the amount
of $332,314.94, jointly and severally with three other
defendants. MarketGraphics Research Grp., Inc. v.
Berge, No. 3:13–cv–00001, ECF No. 64 (M.D. Tenn.
Aug. 22, 2013). The court found that David Berge
“willfully or knowingly violated the Tennessee
Consumer Protection Act.” Id. at 2. It further found
that David Berge’s copyright infringement was
“willful.” Id. at 8.
On August 30, 2013, David Berge filed for Chapter
7 bankruptcy. In re David Peter Berge, No. 3:13–bk–
07626, ECF No. 1 (Bankr. M.D. Tenn. Aug. 30, 2013).
In order to collect its judgment, on October 22, 2013,
MarketGraphics filed an adversarial suit in the
United States Bankruptcy Court for the Middle
District of Tennessee, alleging that David Berge’s
debt to it is nondischargeable under 11 U.S.C.
§ 523(a)(6). MarketGraphics Research Grp., Inc. v.
Berge, No. 3:13–ap–90400, ECF No. 1 (Bankr. M.D.
Tenn. Oct. 22, 2013).

44a
On August 11, 2014, MarketGraphics moved for
summary judgment in the adversarial case, alleging
that all elements are issue precluded by Judge
Trauger’s judgment. Id. at ECF No. 49 (Aug. 11,
2014). On September 30, 2014, the Bankruptcy Court
denied the motion. Id. at ECF No. 61 (Sept. 30,
2014). It found that Judge Trauger’s judgment
determined that David Berge “willfully” caused an
injury, but did not make any finding of malice. Id. at
6. MarketGraphics appealed that ruling to this
District, which the Honorable William J. Haynes, Jr.
dismissed. MarketGraphics Research Grp., Inc. v.
Berge, No. 3:14–cv–02027, ECF No. 11, 2015 WL
738052 (M.D. Tenn. Feb. 20, 2015). MarketGraphics
attempted to appeal to the United States Court of
Appeals for the Sixth Circuit, but the court dismissed
its appeal. MarketGraphics Research Grp., Inc. v.
Berge, No. 15–5477, ECF No. 8 (May 8, 2015).
On March 31, 2016, the Bankruptcy Court
conducted a trial in the adversary proceeding. (Doc.
No. 14.) On May 19, 2016, the Bankruptcy Court
dismissed the action, finding David Berge’s debt to
be dischargeable. (Doc. No. 1–3.) The court found
that “the only issue at trial was whether the debtor
acted with malice.” (Doc. No. 1–2 at 3.) The court
found David Berge to be “very credible” and that he
was “merely a son who worked for his father and
believed what his father told him.” (Id.) Thus, the
court found no “malicious intent in that ... not all the
elements of 11 U.S.C. § 523(a)(6) have been proven.”
(Id.) MarketGraphics appeals that finding to the
Court. (Doc. No. 1.)

45a
II.

STANDARD OF REVIEW

The Court reviews the Bankruptcy Court’s
conclusions of law de novo, and examines its findings
of fact for clear error. In re Dilworth, 560 F.3d 562,
563 (6th Cir. 2009) (citing In re Copper, 426 F.3d
810, 812 (6th Cir. 2005)). The factual finding that an
obligation constitutes a nondischargeable debt is
reviewed for clear error. Sorah v. Sorah (In re
Sorah), 163 F.3d 397, 400 (6th Cir. 1998). Discharge
exceptions are narrowly construed in favor of the
debtor, and the creditor must prove by a
preponderance of the evidence that a discharge
exception applies. Meyers v. I.R.S. (In re Meyers),
196 F.3d 622, 624 (6th Cir. 1999).
III. ANALYSIS
The Bankruptcy Court held that “the only issue at
trial was whether the debtor acted with malice.”
(Doc. No. 1–2 at 3.) MarketGraphics argues that the
Bankruptcy Court used the incorrect standard in
determining whether David Berge acted with malice.
(Doc. No. 15 at 46.) It further argues that the David
Berge’s trial testimony conclusively shows that he
acted with malice, and the Court therefore should
enter judgment for MarketGraphics. (Id. at 53–75.)
David Berge argues that the Bankruptcy Court’s
judgment is correct. (Doc. No. 17.)
A.

The Standard

A Chapter 7 bankruptcy does not discharge a
debtor from any debt “for willful and malicious injury
to another entity or to the property of another entity
....” 11 U.S.C. § 523(a)(6). For § 523(a)(6) to apply, a
debtor must (1) “will or desire harm[;]” or (2) “believe
injury is substantially certain to occur as a result of

46a
his behavior.” Sanderson Farms, Inc. v. Gasbarro,
299 Fed.Appx. 499, 504 (6th Cir. 2008) (quoting
Markowitz v. Campbell (In re Markowitz), 190 F.3d
455, 465 n.10 (6th Cir. 1999)). This limits the
exception to debts “based on what the law has for
generations called an intentional tort.” Kawaauhau
v. Geiger, 523 U.S. 57, 60, 118 S.Ct. 974, 140 L.Ed.2d
90 (1998) (quoting In re Geiger, 113 F.3d 848, 852
(8th Cir. 1997) (en banc)).
The “willful and malicious” standard in § 523(a)(6)
has evolved. In the 1980s, the Sixth Circuit
determined that “willful” means “an intentional act
that results in injury,” Perkins v. Scharffe, 817 F.2d
392, 393 (6th Cir. 1987), and “malicious” means “in
conscious disregard of one’s duties or without just
cause or excuse; it does not require ill-will or specific
intent to do harm.” Wheeler v. Laudani, 783 F.2d
610, 615 (6th Cir. 1986). In 1993, the United States
Supreme Court overturned Perkins, holding that a
“willful and malicious injury” only covers “acts done
with the actual intent to cause injury ....” Geiger, 523
U.S. at 61, 118 S.Ct. 974. In 1999, the Sixth Circuit
applied Gieger in In re Markowitz, stating that “the
judgment must be for an injury that is both willful
and malicious. The absence of one creates a
dischargeable debt.” In re Markowitz, 190 F.3d at
463. It held that unless “the actor desires to cause
consequences of his act, or ... believes that the
consequences are substantially certain to result from
it, ... he has not committed a ‘willful and malicious
injury’ as defined under § 523(a)(6).” Id. at 464
(citing Restatement (2d) of Torts § 8A, at 15 (1964)).
In 2001, Sixth Circuit explicitly stated that Geiger
overruled both Perkins and Wheeler, although it did

47a
not state whether it only overturned the definition of
“willful” in both opinions or if it also overturned the
definition of “malicious” in Wheeler. In re Kennedy,
249 F.3d 576, 580 (6th Cir. 2001). The parties have
not identified a case since In re Kennedy where the
Sixth Circuit cited Wheeler favorably or even used a
separate test for “malicious” outside the test it
articulated in In re Markowitz. See In re Brown, 489
Fed.Appx. 890, 895 (6th Cir. 2012) (to find “willful
and malicious injury,” the Bankruptcy Court must
determine whether the debtor “(1) intended to cause
injury to the Creditor or the Creditor’s property, or
(2) engaged in an intentional act from which the
Debtor believed injury would be substantially certain
to result.”) (quoting In re Sweeney, 264 B.R. 866, 871
(Bankr. W.D. Ky. 2001)); In re Musilli, 379
Fed.Appx. 494, 498 (6th Cir. 2010) (“For the
discharge exception under § 523(a)(6) to apply, a
debtor must: (1) ‘will or desire harm[;]’ or (2) ‘believe
injury is substantially certain to occur as a result of
his behavior.”) (quoting In re Markowitz, 190 F.3d at
465 n.10); Sanderson Farms, Inc. v. Gasbarro, 299
Fed.Appx. 499, 504 (6th Cir. 2008) (same); McGee v.
Marcum, 184 Fed.Appx. 464, 467 (6th Cir. 2006)
(applying the standard from In re Markowitz); In re
Best, 109 Fed.Appx. 1, 5 (6th Cir. 2004) (“[U]nless
the actor desires to cause [the] consequences of his
act, or ... believes that the consequences are
substantially certain to result from it, he has not
committed a willful and malicious injury as defined
under § 523(a)(6).”) (quoting In re Kennedy, 249 F.3d
at 580); In re Romano, 59 Fed.Appx. 709, 715 (6th
Cir. 2003) (“The Sixth Circuit has interpreted
[§ 523(a)(6)] to mean that the debtor must have
desired to cause the consequences of her act, or

48a
believed that the consequences are substantially
certain to result from it.”) (citing In re Markowitz,
190 F.3d at 464). From the post-In re Markowitz
cases, the Sixth Circuit has appeared to apply one
single test for whether an injury was “willful and
malicious” rather than considering “willful” and
“malicious” as separate elements.
This approach is consistent with the Supreme
Court’s holding in Geiger, which considered the scope
of the “willful and malicious injury” exception of
§ 523(a)(6). 523 U.S. at 61, 118 S.Ct. 974. The
Supreme Court did not state that it was only
considering the “willful” element of the exception; it
repeatedly stated that it was defining a “willful and
malicious injury.” Id. at 61, 118 S.Ct. 974 (“We
confront this pivotal question concerning the scope of
the ‘willful and malicious injury’ exception ....”), 63
(discussing another case that examined “willful and
malicious injuries to the person or property of
another.”), and 64 (“Negligent or reckless acts, the
Court held, do not suffice to establish that a
resulting injury is ‘willful and malicious.”). The
United States Court of Appeals for the Fifth Circuit
agreed, and held that “willful and malicious” is a
“unitary concept,” defined as “acts done with the
actual intent to cause injury.” In re Miller, 156 F.3d
598, 606 (5th Cir. 1998) (quoting Geiger, 523 U.S. at
58, 118 S.Ct. 974). The Court believes the Sixth
Circuit’s approach is consistent with Geiger and the
Fifth Circuit’s, and the In re Markowitz test analyzes

49a
“willful and malicious” rather than only the “willful”
element.1
Admittedly, the Bankruptcy Court’s application of
Wheeler’s definition of “malicious” is reasonable. In
re Markowitz, which implemented Geiger in the
Sixth Circuit’s jurisprudence, explicitly held that
“willful” and “malicious” are separate and distinct
elements with different tests. In re Markowitz, 190
F.3d at 463. This approach is consistent with the
approach adopted by the United States Courts of
Appeals for the Eighth and Ninth Circuits. See In re
Barboza, 545 F.3d 702, 711 (9th Cir. 2008) (citing In
re Su, 290 F.3d 1140, 1146– 47 (9th Cir. 2002)); In re
Porter, 375 B.R. 822, 827 (8th Cir. BAP 2007) (citing
Johnson v. Miera, 926 F.2d 741, 743 (8th Cir. 1991)).2
1

Despite the signaling of the Sixth Circuit that it is applying
Geiger’s test to “willful and malicious,” multiple non-binding
opinions by courts within the Sixth Circuit continue to apply
Wheeler’s test for “malicious.” The Court is not persuaded by
these cases because they apply Wheeler’s test for “malicious”
without analyzing the subsequent rulings that place doubt on
Wheeler’s applicability. See Yeager v. Wilmers, 553 B.R. 102,
107 (S.D. Ohio 2015); Eaton v. Ford Motor Credit Co., No. 3:11cv-1029, 2012 WL 3579644, at *3 (M.D. Tenn. Aug. 17, 2012); In
re Cottingham, 473 B.R. 703, 709 (6th Cir. BAP 2012); In re
Trantham, 304 B.R. 298, 308 (6th Cir. BAP 2004); In re Moffitt,
252 B.R. 916, 923 (6th Cir. BAP 2000).
2

A full discussion of the circuit split on “willful and
malicious” is described in Jendusa–Nicolai v. Larsen, 677 F.3d
320, 323 (7th Cir. 2012). Even in this opinion, the Seventh
Circuit is unclear what the Sixth Circuit applies as its
standard. See id. (noting that the Sixth Circuit did not question
the definition in Wheeler in Markowitz, but still held that the
debtor “must will or desire harm, or believe injury is
substantially certain to occur as a result of his behavior.”). The
Seventh Circuit further noted that the Eleventh Circuit

50a
However, as In re Markowitz and subsequent cases
held that the debtor must (1) will or desire harm, or
(2) believe injury is substantially certain to occur as
a result of his behavior, that is the standard that the
Court applies today.
B.

The Application

Although the Bankruptcy Court followed its
precedent and applied the incorrect standard, its
factual findings are sufficient for the Court to
determine that David Berge cause a willful and
malicious
injury
to
MarketGraphics
under
§ 523(a)(6). The Bankruptcy Court found that
“MarketGraphics has failed to show that [David
Berge]
acted
with
the
desire
to
harm
MarketGraphics or that he believed injury was
substantially certain.” This finding is not in clear
error. MarketGraphics argues that the Bankruptcy
Court applied a “just cause or excuse” exception to
§ 523(a)(6), but that language is nowhere in the
Bankruptcy Court’s opinion. Rather, David Berge did
not intend to cause injury as required by Geiger, In
re Markowitz, and all subsequent opinions. Thus, the
Bankruptcy Court’s factual determination is not in
clear error, and its holding is affirmed.
The Court must still remand this case to the
Bankruptcy Court to determine the matter of issue
preclusion on first impression. In its prior issue
preclusion decision, the Bankruptcy Court held that
the “debtor concedes that the District Court
continues to apply a formula almost identical to Wheeler in its
“willful and malicious” jurisprudence. Id. (citing Maxfield v.
Jennings, 670 F.3d 1329, 1334 (11th Cir. 2012)).

51a
judgment is entitled to collateral estoppel as to the
elements of 11 U.S.C. § 523(a)(6) with the exception
of malice.” MarketGraphics v. Berge (In re Berge),
2014 WL 4929423, at *1 (Bankr. M.D.Tenn. 2014). It
found that MarketGraphics was not entitled to
collateral estoppel because “the District Court did
not make a finding of malice ....” Id. at *3. It did not
make a finding of whether the District Court’s
judgment held that David Berge: (1) “will[ed] or
desire[ed] harm[;]” or (2) “believe[d] injury is
substantially certain to occur as a result of his
behavior.” As such, the Court remands this case to
the Bankruptcy Court to decide this issue on the first
instance.
IV. CONCLUSION
For the foregoing reasons, the judgment of the
Bankruptcy Court is AFFIRMED IN PART with
respect to its factual finding that David Berge did
not cause a “willful or malicious” injury to
MarketGraphics, VACATED IN PART with respect
to its collateral estoppel holding, and REMANDED
to the Bankruptcy Court for further proceedings
consistent with this opinion.
IT IS SO ORDERED.

52a
APPENDIX D
_________
UNITED STATES BANKRUPTCY COURT
MIDDLE DISTRICT OF TENNESSEE
_________
IN RE: DAVID PETER BERGE,
Debtor.
_________
MARKETGRAPHICS RESEARCH GROUP, INC.,
Plaintiff,
v.
DAVID PETER BERGE,
Defendant.
_________
Case No. 313-07626
_________
Adv. No. 313-90400
_________
Signed: May 19, 2016
_________
MEMORANDUM OPINION
_________
Marian F. Harrison, US Bankruptcy Judge
The plaintiff, MarketGraphics Research Group, Inc.
(hereinafter “MarketGraphics”) filed the above-styled

53a
adversary complaint to determine whether its claim
against the debtor is non-dischargeable pursuant to
11 U.S.C. § 523(a) (6). For the following reasons,
which represent the Court’s findings of fact and
conclusions of law pursuant to Fed. R. Civ. P.
52(a)(1), as incorporated by Fed. R. Bankr.P. 7052,
the Court finds that the complaint should be denied.
I.

PROCEDURAL BACKGROUND

Previously, the debtor and MarketGraphics were
parties in the District Court case of MarketGraphics
Research Group Inc. v. Donald Berge, et al., No.
3:13–cv–00001. The defendants included the debtor,
his parents, and a trio of limited liability companies
under their control for their roles in allegedly
engaging in unfair competition with MarketGraphics
in the field of housing-market research. On June 3,
2013, the District Court entered a preliminary
injunction against the defendants, including the
debtor, and in favor of MarketGraphics based on a
non-compete agreement.
On July 12, 2013, MarketGraphics moved for
summary judgment in District Court, including six
claims against the debtor (copyright infringement,
unfair competition, violation of the Tennessee
Consumer Protection Act, intentional interference
with business relations, and civil conspiracy). On
August 6, 2013, MarketGraphics filed a Motion for
Entry of Judgment pertaining to its motion for
summary judgment, describing the claims on which
it sought judgment and the amount in which it
sought judgment.
On August 8, 2013, and August 22, 2013, the
District Court stayed the proceedings as to Donald
Berge and Martha Berge (the debtor’s parents),

54a
respectively, after they each filed for bankruptcy
protection. On August 22, 2013, the District Court
granted MarketGraphics’ motion for summary
judgment against the debtor and the three LLCs and
certified the judgment as final. The debtor filed his
voluntary Chapter 7 petition on August 30, 2013.
On October 22, 2013, MarketGraphics filed this
adversary
complaint
to
determine
the
dischargeability of its claim pursuant to 11 U.S.C.
§ 523(a)(6). Initially, MarketGraphics sought
summary judgment based on the prior judgment in
District Court, asserting that the judgment was
entitled to collateral estoppel. The debtor conceded
that collateral estoppel precluded any argument that
the injury was willful but asserted that the District
Court did not consider whether the injury was
malicious. This Court agreed and denied the motion,
finding that the District Court judgment did not
include a finding of malice, and therefore, whether or
not the debtor’s actions were malicious was a
material disputed fact to be determined at trial. The
plaintiff sought an interlocutory appeal of this
Court’s ruling in the District Court and then in the
Sixth Circuit Court of Appeals. After these appeals
were dismissed, the matter was set for trial. The
debtor having conceded all other elements of 11
U.S.C. § 523(a)(6), the only issue at trial was
whether the debtor acted with malice.1
1

MarketGraphics continues to argue that all the elements of
11 U.S.C. § 523(a)(6), including malice, were addressed in the
District Court’s judgment, and therefore, are subject to
collateral estoppel. This Court has already considered the
collateral estoppel issue, and nothing presented at trial has

55a
II.

FACTS

MarketGraphics and the debtor’s father, Donald
Berge (hereinafter “Mr. Berge”), were parties to an
agreement (hereinafter the “Associate Agreement”)
dated January 15, 1997. Mr. Berge collected data
every fourth month from subdivisions in five counties
in the Memphis area and delivered the information
to MarketGraphics. The debtor worked for his father,
covering DeSoto County in Mississippi and Shelby
County in Tennessee. Collecting this data is known
as “driving the market” and involves driving around
the subdivisions within the area to determine
market growth. The maps used were provided and
copyrighted by MarketGraphics. This process took
approximately three weeks to complete. The debtor
also did pipeline research, such as pull MLS data for
reports and look for potential new subdivisions
online.
On August 21, 2012, Mr. Berge formed Realysis of
Memphis, LLC (hereinafter “Realysis”), as a limited
liability company with the debtor as the registered
agent and sole member. Unlike MarketGraphics,
Realysis provided quarterly reports to its customers
with some additional information. Realysis continued
to use MarketGraphics’ copyrighted maps in
gathering data. At this time, the debtor lived in
Nashville, but he stayed with his parents and
worked out of their home when he was driving the
market. On September 28, 2012, Mr. Berge notified
MarketGraphics by e-mail of his desire to terminate
changed this Court’s opinion. The only issue remains whether
the debtor acted with malice.

56a
the Associate Agreement. The Associate Agreement
included a non-compete clause. The debtor testified
that he was aware of the non-compete clause but his
father told him that he had consulted with an
attorney and that the non-compete clause was
invalid. The debtor did not know until after the fact
that his father listed him as president on the
company’s web page and that his name went out on
invoices, e-mails, and letters. The debtor believed his
title to be superficial because his father actually ran
the business. The debtor used this title on social
media, but from his testimony, it was clear that the
debtor was just attempting to bolster his resume.
Even when the debtor found out that they might be
sued under the non-compete clause, his father again
told him not to worry because the non-compete
agreement was invalid and besides, the debtor could
not be bound by the non-compete agreement because
he did not sign it.
III.

DISCUSSION
A.

DISCHARGEABILITY

Generally, exceptions to discharge are to be
construed strictly against the creditor. Gleason v.
Thaw, 236 U.S. 558, 562 (1915). The burden of proof
falls upon the party objecting to discharge to prove
by a preponderance of the evidence that a particular
debt is nondischargeable. Grogan v. Garner, 498 U.S.
279, 291 (1991). The primary purpose of bankruptcy
is to grant a “fresh start to the honest but
unfortunate debtor.” Marrama v. Citizens Bank of
Mass., 549 U.S. 365, 367 (2007) (citation and internal
quotation marks omitted). Because the bankruptcy
discharge is central to a “fresh start,” discharge
exceptions “are to be strictly construed against the

57a
creditor and liberally in favor of the debtor.” Risk v.
Hunter (In re Hunter), 535 B.R. 203, 212
(Bankr.N.D.Ohio 2015) (citations omitted).
B.

11 U.S.C. § 523(a)(6)

Pursuant to 11 U.S.C. § 523(a)(6), a debt is
nondischargeable when the debt is “for willful and
malicious injury by the debtor to another entity or to
the property of another entity.” This discharge
exception requires an injury resulting from conduct
that is “both willful and malicious.” Markowitz v.
Campbell (In re Markowitz), 190 F.3d 455, 463 (6th
Cir.1999). “[U]nless ‘the actor desires to cause
consequences of his act, or ... believes that the
consequences are substantially certain to result from
it,’ he has not committed a ‘willful and malicious
injury’ as defined under § 523(a)(6).” Id. at 464
(citation omitted). It is insufficient that a reasonable
debtor “should have known” that his conduct risked
injury to others. Id. at 465 n.10. Instead, the debtor
must “will or desire harm, or believe injury is
substantially certain to occur as a result of his
behavior.” Id. “The conduct ‘must be more culpable
than that which is in reckless disregard of creditors’
economic
interests
and
expectancies,
as
distinguished from ... legal rights.... [K]nowledge
that legal rights are being violated is insufficient to
establish malice.’ “ Steier v. Best (In re Best), 109
Fed.Appx. 1, 6 (6th Cir.2004) (citation omitted). In
other words, “[l]ack of excuse or justification for the
debtor’s actions will not alone make a debt
nondischargeable under § 523(a)(6).” S. Atlanta
Neurology & Pain Clinic, P.C. v. Lupo (In re Lupo),
353 B.R. 534, 550 (Bankr.N.D.Ohio 2006) (citation
omitted).

58a
In the present case, MarketGraphics has failed to
show that the debtor acted with the desire to harm
MarketGraphics or that he believed injury was
substantially certain. If Mr. Berge were the
defendant in this adversary, it seems certain that the
debt would be non-dischargeable. Mr. Berge was the
culprit who concocted this elaborate plan and used
his family members, in particular his son, to avoid
liability. After listening to portions of Mr. Berge’s
deposition and hearing his testimony in court, Mr.
Berge clearly was not a credible witness. Only after
he received a discharge in his own bankruptcy did
Mr. Berge change his testimony regarding the
debtor’s involvement. On the other hand, the debtor
was very credible. He was merely a son who worked
for his father and believed what his father told him.
The Court cannot find any malicious intent in that,
and therefore, not all the elements of 11 U.S.C.
§ 523(a)(6) have been proven.
IV.

CONCLUSION

Accordingly, the Court finds that the plaintiff’s
complaint should be dismissed and that the debt is
dischargeable.
An appropriate order will enter.

59a
APPENDIX E
_________
UNITED STATES BANKRUPTCY COURT
MIDDLE DISTRICT OF TENNESSEE
_________
IN RE: DAVID PETER BERGE,
Debtor.
_________
MARKETGRAPHICS RESEARCH GROUP, INC.,
Plaintiff,
v.
DAVID PETER BERGE,
Defendant.
_________
Bankruptcy No. 313-07626
_________
Adversary No. 313-90400
_________
Signed: Sept. 30, 2014
_________
MEMORANDUM OPINION
_________
MARIAN F. HARRISON, U.S. Bankruptcy Judge
The plaintiff filed the above-styled adversary
complaint to determine whether its claim against the

60a
debtor is non-dischargeable pursuant to 11 U.S.C.
§ 523. The plaintiff filed a motion for summary
judgment, asserting that its District Court judgment
establishes the elements of 11 U.S.C. § 523(a)(6) and
is entitled to collateral estoppel. For the following
reasons, the Court finds that the plaintiff’s motion
for summary judgment should be denied.
I.

UNDISPUTED FACTS

On August 22, 2013, the District Court for the
Middle District of Tennessee granted summary
judgment in the plaintiff’s lawsuit against the
debtor. The District Court found that the debtor had
willfully or knowingly violated the Tennessee
Consumer Protection Act (hereinafter “TCPA”) and
entered judgment against him for $72,328 in
compensatory and $144,656 in treble damages. The
District Court also found that the debtor had
willfully infringed on the plaintiff’s valid copyrights
and entered judgment against him for $108,752 in
damages. The plaintiff asserts that its claim is nondischargeable based on the collateral estoppel effect
of the District Court’s judgment. The debtor concedes
that the District Court judgment is entitled to
collateral estoppel as to the elements of 11 U.S.C.
§ 523(a)(6) with the exception of malice.
II.

DISCUSSION

A.

Summary Judgment Standards

Pursuant to Fed.R.Civ.P. 56(a), as incorporated by
Fed. R. Bankr.P. 7056, an entry of summary
judgment is mandated “if the movant shows that
there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter
of law.” When considering a motion for summary

61a
judgment, the Court “must view the evidence and
draw all reasonable inferences in favor of the
nonmoving party.” Browning v. Levy, 283 F.3d 761,
769 (6th Cir.2002) (citation omitted). The Court does
not “ ‘weigh the evidence and determine the truth of
the matter but ... determine[s] whether there is a
genuine issue for trial.’ ” Id. (citation omitted).
B.

Collateral Estoppel

The doctrine of collateral estoppel prevents a party
from relitigating issues that were actually litigated
in a prior proceeding. Markowitz v. Campbell (In re
Markowitz), 190 F.3d 455, 461 (6th Cir.1999)
(citations omitted). “Principles of collateral estoppel
apply in non-dischargeability actions.” Livingston v.
Transnation Title Ins. Co. (In re Livingston), 372
Fed. App’x. 613, 617 (6th Cir.2010) (unpublished)
(citations omitted).
Where the prior judgment is from a federal court
and involves a federal question, federal issue
preclusion law applies. Semtek Int’l Inc. v. Lockheed
Martin Corp., 531 U.S. 497, 508 (2001). Whereas,
when a federal judgment is based on a state law
issue, the issue preclusion law of the state in which
the federal court sits is generally applied unless
there is a countervailing federal interest. Id.
Accordingly, in this case, the Court must look to
federal issue preclusion law as to the copyright
infringement judgment and to Tennessee law as to
the TCPA judgment.
Federal “[i]ssue preclusion ... bars ‘successive
litigation of an issue of fact or law actually litigated
and resolved in a valid court determination essential
to the prior judgment,’ even if the issue recurs in the
context of a different claim.” Taylor v. Sturgell, 553

62a
U.S. 880, 892 (2008) (citations omitted). Under
Tennessee law, collateral estoppel requires a
showing of the following elements:
[1.] that the issue sought to be precluded is
identical to the issue decided in the earlier
suit; [2.] that the issue sought to be precluded
was actually litigated and decided on its
merits in the earlier suit; [3.] that the
judgment in the earlier suit has become final;
[4.] that the party against whom collateral
estoppel is asserted was a party or is in privity
with a party to the earlier suit; and [5.] that
the party against whom collateral estoppel is
asserted had a full and fair opportunity in the
earlier suit to litigate the issue now sought to
be precluded.
Patton v. Estate of Upchurch, 242 S.W.3d, 781, 787
(Tenn.Ct.App.2007) (citation omitted).
C.

11 U.S.C. § 523(a)(6)

Pursuant to 11 U.S.C. § 523(a)(6), a debt is
nondischargeable when the debt is “for willful and
malicious injury by the debtor to another entity or to
the property of another entity.” Section 523(a)(6)
provides that a debt that is both willful and
malicious is nondischargeable. When relying on
collateral estoppel, “the [prior] judgment must be for
an injury that is both willful and malicious. The
absence of one creates a dischargeable debt.” In re
Markowitz, 190 F.3d 455, 463.
A malicious injury occurs “when a person acts in
conscious disregard of [his] duties or without just
cause or excuse.” J & A Brelage, Inc. v. Jones (In re
Jones), 276 B.R. 797, 803 (Bankr.N.D.Ohio 2001)

63a
(citation omitted). “[M]alice does not require any ill
will or specific intent to do harm, only to do an act
without just cause or excuse, but that is beyond
negligence or recklessness.” West Michigan Cmty.
Bank v. Wierenga (In re Wierenga), 431 B.R. 180, 185
(Bankr.W.D.Mich.2010) (citations omitted).
i.

Tennessee Consumer Protection Act

In order to recover under the TCPA, a plaintiff
must prove that the defendant engaged in an unfair
or deceptive act or practice declared unlawful by the
TCPA and that the defendant’s conduct caused an
ascertainable loss of money or property. T.C.A. § 4718-109(a)(1). Under the TCPA, a defendant’s conduct
need not be willful or even knowing, but if it is, the
trial court is permitted to award treble damages
under T.C.A. § 47-18-109(a)(3). Tucker v. Sierra
Builders,
180
S.W.3d
109,
115-16
(Tenn.Ct.App.2005) (citations and footnote omitted).
In Tomlin v. Crownover (In re Crownover), 417 B.R.
45 (Bankr.E.D.Tenn.2009), the plaintiffs’ pre-petition
state court judgment against the debtor was, in part,
for violations of the TCPA, and the plaintiffs sought
to use the doctrine of collateral estoppel to obtain
summary judgment against the debtor on their
dischargeability claims. The court concluded that the
state court judgment was insufficient to establish all
the intentional elements of the plaintiffs’
nondischargeability claims and denied in part the
plaintiffs’ motion for summary judgment. The court
noted that “[t]he plaintiffs’ argument under
§ 523(a)(6) fails because they erroneously equate
‘willful and malicious’ in § 523(a)(6) with ‘unfair or
deceptive’ in the state court’s judgment.” Id. at 58.

64a
In the present case, the District Court ruled that
“pursuant to Tennessee Code Ann. § 47-18-109(a)(3),
that the Defendants ... willfully or knowingly
violated the Tennessee Consumer Protection Act,”
and awarded treble damages to the plaintiff. The
award of treble damages under the TCPA does not
require a finding of malice, nor does the District
Court’s order reflect a finding of malice. As stated in
In re Markowitz, an injury must be both willful and
malicious to be non-dischargeable under 11 U.S.C.
§ 523(a)(6). 190 F.3d at 463. Because the District
Court did not make a finding of malice, the plaintiff
is not entitled to collateral estoppel on this element
of 11 U.S.C. § 523(a)(6).
ii.

Copyright Infringement

In the District Court judgment, the Court held that
the debtor’s “infringement was willful.” The Court
also
held
that
the
debtor
violated
the
Anticybersquatting
Consumer
Protection
Act
(hereinafter “ACPA”). To establish a copyright
infringement claim, a plaintiff must show “ownership
of a valid copyright” and that “defendant copied
protectable elements of the work.” Lexmark Int’l, Inc.
v. Static Control Components, Inc., 387 F.3d 522, 534
(6th Cir.2004). While the elements of copyright
infringement do not include intent, the District
Court ruled that the debtor’s infringement was
willful. However, as stated in In re Markowitz, 190
F.3d at 463, willful and malicious are distinct
elements of 11 U.S.C. § 523(a)(6).
Under the ACPA, cybersquatting includes the act of
registering or using a domain name that is identical
or confusingly similar to another entity’s trademark
or service mark (or personal name that is protected

65a
as a mark) with the bad faith intent of making a
profit. 15 U.S.C. § 1125(d)(1). As to the defendant’s
state of mind, there is no mention in the ACPA of
willfulness or malice, only of bad faith intent to
profit. In HER, Inc. v. Barlow (In re Barlow), 478
B.R. 320 (Bankr.S.D.Ohio 2012), the court declined
to decide whether a finding of bad faith under ACPA
would lead in every case to a ruling that the
resulting debt is nondischargeable under 11 U.S.C.
§ 523(a)(6). Id. at 335. Instead, the court based its
finding of collateral estoppel on the District Court’s
award of significant statutory damages and
attorneys’ fees after stating that “courts award such
damages where a defendant ‘willfully, intentionally
and maliciously acted in bad faith with intent to
profit.’ ” Id. Unlike the underlying record in In re
Barlow, the District Court’s judgment in this case
includes no such findings regarding the debtor’s
conduct, and there is no basis for concluding that
issue preclusion should apply on the issue of malice.
III.

CONCLUSION

Accordingly, the Court finds that the plaintiff’s
motion for summary judgment should be denied.
An appropriate order will enter.

66a
APPENDIX F
_________
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_______
IN RE: DAVID PETER BERGE,
Debtor.
_________
MARKETGRAPHICS RESEARCH GROUP, INC.,
Plaintiff-Appellant,
v.
DAVID PETER BERGE,
Defendant-Appellee.
_________
Case No. 18-6177
_________
Issued: May 6, 2020
_________
ORDER
_________
BEFORE: MOORE, COOK, and READLER, Circuit
Judges.
Upon consideration of the petition for rehearing
filed by the appellant,
It is ORDERED that the petition for rehearing be,
and it hereby is, DENIED.

67a
ENTERED BY ORDER OF
THE COURT
Deborah S. Hunt, Clerk
Issued: May 6, 2020 /s/ Deborah S. Hunt

68a
APPENDIX G
_________
UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
AT NASHVILLE
_______
MARKETGRAPHICS RESEARCH GROUP, INC.,
Plaintiff,
v.
DONALD BERGE; DAVID BERGE; MARTHA BERGE;
REALYSIS OF MEMPHIS, LLC; REALYSIS OF JACKSON,
LLC, AND REALYSIS LLC,
Defendants.
_________
Case No. 3:13-cv-00001
_________
Judge Trauger
_________
Magistrate Judge Bryant
_________
August 22, 2013
_________
JUDGMENT
_________
Having considered the papers filed in connection
with MarketGraphics Research Group, Inc.’s Motion

69a
for Summary Judgment, together with the whole
record, the Court hereby GRANTS Plaintiff’s Motion
for Summary Judgment and ORDERS as follows:
1. The Plaintiff, MarketGraphics Research
Group, Inc., is hereby AWARDED a judgment of
damages in the sum of $332,314.94 against
Defendants David Berge; Realysis of Memphis, LLC;
Realysis of Jackson, LLC; and Realysis, LLC, jointly
and severally. This total damages award consists of
the following components:
Actual Damages Pursuant to 17
$108,752
U.S.C. § 504
Other Compensatory Damages

$72,328.00

Treble Damages under the TCPA

$144,656.00

Prejudgment Interest:

$6,242.00

Per diem prejudgment interest after
336.94
8/5/13
Total:

$332,314.94

2. The Court hereby FINDS, pursuant to
Tennessee Code Ann. § 47-18-109(a)(3), that the
Defendants David Berge; Realysis, LLC; Realysis of
Memphis, LLC; and Realysis of Jackson, LLC,
willfully or knowingly violated the Tennessee
Consumer Protection Act.
3. David Berge; Realysis, LLC; Realysis of
Memphis, LLC; and Realysis of Jackson, LLC, along
with their representatives, agents, affiliates,
successors, assigns, and any person or entity acting
on their behalf or in concert or participation with

70a
them, are hereby PERMANENTLY ENJOINED from
publishing, procuring the publication, making,
producing, reproducing, copying, distributing,
transferring, displaying, marketing, advertising,
shipping, providing or causing to be provided access
via the internet to, selling or offering to sell, or
delivering in connection with consulting services or
otherwise:
a. Any map, image, or depiction of the
Memphis area that uses analytical divisions
identical or substantially similar to the MG Areas
found on Exhibit 1 hereto, which is incorporated
herein by reference;
b. Any map, image, or depiction of the
Memphis area that uses the analytical divisions
found on Exhibit 2 hereto, which is incorporated
herein by reference.
c.
Any publication, whether in physical or
electronic format, related to the market for new
homes that uses taxonomies for home styles
identical or substantially similar to those found
on Exhibit 3 hereto, which is incorporated herein
by reference.
d. Any publication, whether or physical or
electronic format, related to the market for new
homes that uses the taxonomies for new home
styles found on Exhibit 4 hereto, which is
incorporated herein by reference.
e. Any publication, whether in physical or
electronic format, related to the market for new
homes that uses taxonomies for home
construction stages identical or substantially

71a
similar to those found on Exhibit 5 hereto, which
is incorporated herein by reference.
f.
Any publication, whether or physical or
electronic format, related to the market for new
homes that uses the taxonomies for home
construction stages (or “subdivision life cycle
terminology”) found on Exhibit 6 hereto, which is
incorporated herein by reference.
4. David Berge; Realysis, LLC; Realysis of
Memphis, LLC; and Realysis of Jackson, LLC, along
with their representatives, agents, affiliates,
successors, assigns, and any person or entity acting
on their behalf or in concert or participation with
them, are hereby PERMANENTLY ENJOINED from
engaging in any of the following acts:
a. Copying, imitating, selling, offering to sell,
marketing, distributing, or making any use of the
elements
of
the
copyrighted
works
of
MarketGraphics Research Group, Inc., shown in
Exhibits 1, 3, and 5, which works are owned by
MarketGraphics Research Group, Inc.;
b. Engaging in any and all further acts of
infringement of the elements of the copyrighted
works shown on Exhibits 1, 3, and 5, which works
are owned by MarketGraphics Research Group,
Inc.;
c.
Asserting any ownership of rights or any
right, title, or interest in the elements of the
copyrighted works shown on Exhibits 1, 3, and 5,
which works are owned by MarketGraphics
Research Group, Inc.;
d. Assisting, aiding, or abetting any other
entity or person in engaging in or performing any

72a
of the activities referred to in paragraph 1(a)
through 1(f) and 2(a) through 2(c).
5. David Berge; Realysis, LLC; Realysis of
Memphis, LLC; and Realysis of Jackson, LLC, are
hereby ORDERED to terminate web access to the
Realysis Data Interface Tool and to keep the Realysis
Data Interface Tool inaccessible via the world-wide
web, or via any other network or protocol, until such
time as it is modified to comply with the provisions of
this injunction.
6. David Berge; Realysis, LLC; Realysis of
Memphis, LLC; and Realysis of Jackson, LLC, at
their own expense, shall make written contact,
including by facsimile or e-mail, with each person or
entity to whom a copy of Metro Memphis New Homes
Market Analysis has been delivered since September
1, 2012, and each person or entity to whom access to
the Realysis Data Interface Tool has been provided
at any time since September 1, 2012, and provide
each such person or entity with a copy of this Order
and with a verbatim copy of the following notice, in
legible and conspicuous print, of the following (which
is hereinafter referred to as the “Notice”):
NOTICE PUBLISHED PURSUANT TO
ORDER OF
THE UNITED STATES DISTRICT COURT
YOU ARE HEREBY ADVISED as follows:
Recently you received one or more copies of
Metro Memphis New Homes Market Analysis,
or you were given access to an online database
sometimes referred to as the Realysis Data
Interface Tool or Realysis Quarterly Data
Tool.

73a
Pursuant to the rulings of the United States
District Court for the Middle District of
Tennessee, both Metro Memphis New Homes
Market Analysis and the Realysis Data
Interface Tool contain copyrighted elements
belonging to MarketGraphics Research Group,
Inc., and that have been infringed by David
Berge and three entities doing business under
the trade name “Realysis.”
The Court has ordered these persons and
entities immediately to cease any further
production, distribution, or provision of access
to Metro Memphis New Homes Market
Analysis and the Realysis Data Interface Tool.
7. David Berge; Realysis, LLC; Realysis of
Memphis, LLC; and Realysis of Jackson, LLC, at
their own expense, shall post in legible and
conspicuous print a verbatim copy of the Notice upon
the home page of the Realysis web site at
www.realysis.com, beginning within twenty-four
hours of receipt of notice of this Order and
continuing for a period of no less than ninety (90)
days.
8. The Defendants David Berge; Realysis of
Memphis, LLC; Realysis of Jackson, LLC; and
Realysis, LLC, and all those in privity or acting in
concert with them are, for a period of four years
beginning on September 28, 2012, ENJOINED from
acting in concert or privity with or on behalf of
Donald Berge in selling, offering to sell, giving,
distributing, or conveying, in any format and by any
medium, whether for consideration or gratuitously,
any compilation of data in any form whatsoever,

74a
related to the market for new homes in the Memphis
Metro Area.
9. The Defendants David Berge; Realysis of
Memphis, LLC; Realysis of Jackson, LLC; and
Realysis, LLC, and all those in privity or acting in
concert with them, are, for a period of four years
beginning on September 28, 2012, ENJOINED from
acting in concert or privity with or on behalf of
Donald Berge in collecting data related to the market
for new homes in the Memphis Metro Area pursuant
to the MarketGraphics Systems.
10. For all purpose of this Injunction, the
Memphis Metro Area consists of Shelby, Fayette, and
Tipton Counties, Tennessee; De Soto County,
Mississippi; and Crittenden County, Arkansas.
11. For purposes of this Injunction, the
MarketGraphics System consists of (1) the
compilation of statistical information pertaining to
the new-home market using the construction stage,
home-style, subdivision, and price-range taxonomies
found in Exhibit 7 hereto; and (2) the division of the
Memphis Metro Area into the “MG Areas,” however
denominated, found in Exhibit 1 hereto.
12. The Defendants David Berge; Realysis of
Memphis, LLC; Realysis of Jackson, LLC; and
Realysis, LLC, Donald Berge, along with their
representatives,
agents,
affiliates,
successors,
assigns, and any person or entity acting on their
behalf or in concert or participation with them, are
hereby PERMANENTLY ENJOINED from acting in
concert or privity with or on behalf of Donald Berge
in maintaining or using a website accessible via, or
causing to be used or maintained a website

75a
accessible
via,
the
second-tier
domains
“marketgraphicsofmemphis” or “marketgraphics.”
13. No part of any of the foregoing injunctive
commands is directed at, or shall operate against,
the Defendants Donald Berge and Martha Berge,
against whom continuation of judicial action is
automatically stayed by operation of 11 U.S.C.
§ 362(a), both Mr. and Mrs. Berge having filed
voluntary petitions under Chapter 7 of the
Bankruptcy Code. This action REMAINS STAYED
against Defendants Donald Berge and Martha Berge.
The Court’s May 31, 2013, Preliminary Injunction
REMAINS IN EFFECT against the Defendants
Donald Berge and Martha Berge.
Pursuant to Federal Rule of Civil Procedure
65(d)(1)(A), the Court finds as follows:
I.
The Plaintiff and the Defendant Donald Berge
entered a valid Associate Agreement on January 15,
1997. The Associate Agreement contains a covenant
by which Mr. Berge agrees to refrain from competing
with MarketGraphics or using MarketGraphics’
procedures, techniques, or materials following the
termination of the Agreement.
II. The Defendants, David Berge; Realysis, LLC;
Realysis of Memphis, LLC; and Realysis of Jackson,
LLC, (hereinafter referred to as the “Active
Defendants”) have been acting in active concert with
Donald Berge in since Donald Berge’s termination of
the Associate Agreement. The actions of the Active
Defendants have been in derogation of the rights of
MarketGraphics under the Associate Agreement.
III. MarketGraphics
seeks
a
enforcement
of
the
restrictive

reasonable
covenant.

76a
MarketGraphics has a protectable business interest
in its Memphis area customers, provided extensive
training to Mr. Berge, and made him privy to its
operations and methods over the course of a
fourteen-year relationship. The four years requested
in the Complaint is a permissible length for a
restrictive covenant under Tennessee law. Having
obtained summary judgment, Plaintiff has prevailed
on the merits of its claim against the Active
Defendants and demonstrated its entitlement to
injunctive relief against them.
IV. The Active Defendants have wrongfully
impaired Plaintiff’s good will among its Memphis
customers and deprives it of the opportunity to
compete fairly. Such injuries are poorly, if at all,
compensated by monetary damages. It is thus likely
that MarketGraphics will suffer irreparable harm
without an injunction.
V. The enforcement of a valid and reasonable
covenant not to compete does not impose an
untoward burden upon the Active Defendants, since
the severity of the injury to Plaintiff’s position in the
Memphis market—the loss of four-fifths of its
customers—together with the fledgling character of
the Active Defendants’ operation and the inherently
wrongful nature of the Active Defendants’
undertaking, tip the balance of equities in favor of
granting the injunction.
VI. The Active Defendants’ activities do not
implicate any public interest that militates against
entry of the injunction.
VII. The same is true of the Active Defendants’
infringement of the Plaintiff’s copyrights. The
Plaintiff has a protectable copyright interest in

77a
various elements of its publication Memphis Metro
Area Memphis Metro Area Housing & Subdivision
Analysis. These elements include those shown in
Exhibits 1, 3, and 5 hereto.
VIII. The Active Defendants have, in conjunction
with others, published and distributed a competing
publication, Metro Memphis New Homes Market
Analysis, that infringes MarketGraphics Research
Group’s registered and protectable copyright in the
parts of Memphis Metro Area Housing & Subdivision
Analysis shown in Exhibits 1, 3, and 5 hereto. In
particular, the elements seen in Exhibits 2 and 4
infringe upon Plaintiff’s copyright in Memphis Metro
Area Housing & Subdivision Analysis.
IX. Likewise,
the
Active
Defendants,
in
conjunction with others, have caused to be published
on the internet a database, known as the Realysis
Data Interface Tool, presenting data contained in
Metro Memphis New Homes Market Analysis as well
as additional information. Portions of this database
also infringe Plaintiff’s copyright in Memphis Metro
Area Housing & Subdivision Analysis. In particular,
each part of the Realysis Data Interface Tool that
shares an infringing element with Metro Memphis
New Homes Market Analysis and the home-style
taxonomies shown on Exhibit 6 hereto infringe
Plaintiff’s copyright in Memphis Metro Area Housing
& Subdivision Analysis.
X. The Active Defendants’ infringement was
willful.
XI. An injunction under the Copyright Act is
appropriate for all the same considerations that an
injunction under the Associate Agreement is
appropriate.

78a
XII. The Plaintiff owns the distinctive mark
“MarketGraphics” pertaining to housing market
research. The Active Defendants’ participation in or
benefitting from Donald Berge’s use of the secondtier domain names “marketgraphicsofmemphis” and
“marketgraphics”
constitutes
infringement
of
Plaintiff’s mark for which injunctive relief is
appropriate pursuant to the Anticybersquatting
Consumer Protection Act, 15 U.S.C. § 1125(d).
Entry of this order shall constitute a final
judgment, pursuant to Federal Rule of Civil
Procedure 54(b), against David Berge; Realysis, LLC;
Realysis of Memphis, LLC; and Realysis of Jackson,
LLC.
It is so Ordered.
Entered this 22nd day of August 2013.
/s/ Aleta A. Trauger
ALETA A. TRAUGER
UNITED STATES DISTRICT JUDGE

79a
APPROVED FOR ENTRY:
s/Paul J. Krog
Eugene N. Bulso, Jr. (No. 12005)
Paul J. Krog (No. 29263)
LEADER, BULSO & NOLAN, PLC
414 Union Street, Suite 1740
Nashville, Tennessee 37219
(615) 780-4110
Attorneys for Plaintiff

80a
APPENDIX H
_________
MARKETGRAPHICS NATIONAL, INC.
_______
AGREEMENT
This Agreement (the “Agreement”) entered into this
15th day of January, 1997 by and between
MARKETGRAPHICS
NATIONAL,
INC.,
a
Tennessee corporation with offices located at 5530
Hearthstone
Lane,
Brentwood,
TN
37027
(“MarketGraphics”) and Don Berge an individual
resident of Tennessee whose address is PO Box
181532 Memphis, Tn. 38181 (“Berge”).
WITNESSETH
WHEREAS, MarketGraphics is a housing
marketing organization with experience in the
analysis and publication of market data regarding
the availability, pricing and sales activity of
residential real estate, including undeveloped land,
unimproved lots, properties under construction, and
closed sales; and WHEREAS, MarketGraphics and
Berge desire to enter into an agreement to allow
Berge to operate as a licensee of MarketGraphics in
the Memphis, Tennessee Metropolitan Statistical
Area (including parts of Arkansas and Mississippi) to
collect, analyze and sell market research data in said
area; and
WHEREAS, MarketGraphics has agreed to provide
certain information and systems to support Berge’s
operation,

81a
WHEREAS, the parties desire to set forth in
writing certain undertakings and understandings
regarding their mutual agreement.
NOW, THEREFORE, for and in consideration of
the covenants and agreements herein contained, and
other good and valuable considerations, the receipt
and sufficiency of which are hereby acknowledged,
the parties agree as follows:
1.

LICENSE.

A. MarketGraphics hereby grants to Berge, upon
the terms and conditions hereof, the right to operate
and use the MarketGraphics name, but only in
connection with the collection, publication and
distribution of market research information and
materials
produced
in
conjunction
with
MarketGraphics.
B. Nothing herein shall give Berge any right,
title or interest in or to any of MarketGraphic’s
trademarks, trade names, service marks, insignia,
labels or designs, including without limitation and
data
bank
established
and
the
name
“MarketGraphics,” except a mere privilege and
license during the term hereof, to display and use the
same according to the limitations herein set forth,
and upon the termination of this agreement for any
reason, at the election of MarketGraphics, Berge
shall deliver and surrender immediately to
MarketGraphics each and all of the materials and
data in the possession of Berge which contain or
utilize the term “MarketGraphics” as well as any and
all associated MarketGraphics materials, old reports
and manuals.

82a
2.

TERM

This agreement shall continue in force indefinitely,
provided Berge complies with all of the terms and
conditions of this agreement, including without
limitation, the payment of the initial and renewal
license fees, periodic computer center costs,
publication costs, and other expenses chargeable to
Berge hereunder.
3.

EXCLUSIVE TERRITORY

Berge shall have the exclusive license to operate a
real
estate
market
research
organization
cooperatively with MarketGraphics and to utilize the
MarketGraphics name in the following counties in
Tennessee, Arkansas and Mississippi: (5 Countys)
Shelby, Fayette, Tipton (TN); DeSoto (MS); and,
Crittenden (AR).
4.

LICENSE FEES AND EXPENSES.

A. As an initial license fee, the sum of Twenty
Five Thousand ($25,000.00) Dollars, shall be due to
MarketGraphics from Berge. Said sum shall be
deemed fully earned by MarketGraphics upon the
execution of this Agreement by the parties hereto.
B. The initial fee may be paid by Berge in 18
equal payments of $1,388.89, with a payment being
due the first of every fourth month beginning the
second month after the delivery to Berge of the first
Main Report. Berge shall furnish all data needed to
produce the first data base before the end of Nine (9)
months from this agreement and the Main Report
Data updated within 3 1/2 months thereafter.
C. In addition to the initial fee as provided above,
Berge shall pay to MarketGraphics an annual
License Renewal fee, one-third of which fee shall be

83a
due and payable the first day of every fourth month
beginning the second month after the delivery to
Berge of the first Main Report plus one year. The
annual fee shall be $5,000.00 for the first year of this
agreement, $10,000.00 for the second year of this
Agreement, and $15,000.00 for the third year of this
Agreement and every year thereafter. Beginning
with the eleventh year of this agreement, the annual
License Renewal fee shall increase by a percentage
equal to the percentage increase change in the
Consumer Price Index published by the United
States Department of Labor, Bureau of Labor
Statistics for the Atlanta (Georgia) Metropolitan
Area (1992 - 1994=100), such adjustment being
calculated based on the most recently published
twelve month period and being computed on the
increase over the immediately preceding twelve (12)
month period.
D. In addition to the above, at the time of
publication of the four month Reports described
below, Berge shall pay to MarketGraphics a
computer center cost payment of $2,850.00 per four
months, plus the actual cost of duplication of the
reports excluding the first copy of the report which
copy is included in the basic cost figure. Beginning
with the fifth year of this Agreement, the computer
center cost payment shall increase by a percentage
equal to the percentage change in the Consumer
Price Index published by the United States
Department of Labor, Bureau of Labor Statistics for
the Atlanta (Georgia) Metropolitan Area (1992 - 1994
= 100), such adjustments being calculated based on
the most recently published twelve month period and
being computed on the increase over the immediately

84a
preceding twelve month period. After 7 years from
this agreement MarketGraphics reserves the Right
to have a yearly evaluation of this cost and increase
the price but not over twice the Consumer Price
Index.
5.

REPORTS AND PRESENTATIONS.

Upon Berge providing such market research data
and information as designated by MarketGraphics,
MarketGraphics shall analyze such data and
information and compile and produce the following
reports (“the reports”): Main Report, Main Report
Summary, Lot & Development report, Executive
Summary, Permit Report, 10 Minute Manager
Report with cassette tape, Housing Forecast, and
Fed. vs Market Report. The Reports shall be
produced in a style and manner and contain a
similar presentation of information as those reports
produced by MarketGraphics in the Nashville,
Tennessee Metropolitan Area or as adjusted at the
sole discretion of MarketGraphics. In addition to
producing
and
publishing
the
Reports,
MarketGraphics shall make Edsel Charles or his
agent available, at MarketGraphic’s expense, at least
once a year to make a live presentation on behalf of
Berge to such gathering as Berge may request, such
as the HomeBuilders Association, realtor groups, or
other groups or organizations as may reasonably
benefit the operation of Berge or increase the
visibility of Berge’s operations but not exceed two
presentations within a six (6) hour period on one day.
The New Homes Publication Service will be
separate from this agreement and the cost agreed to
separate from this contract.

85a
6.

TRAINING.

MarketGraphics shall train one (1) person
designated by Berge or Berge on the data collection
and research techniques utilized by MarketGraphics
in preparing the information and data necessary to
produce the Reports. Such training shall include
working with Berge’s designated representative to
prepare and collect all of the necessary information
for one of the counties (not including Shelby County)
in Berge’s territory defined above but not more then
the course of one (1) week. Such training shall
include explanation of the forms used for the
collection of data, using forms to collect all of the
necessary information from the county courthouse,
preparing the permit reports, mapping the county,
physically driving part of the area with the
representative, and demonstrating how the
information should be packaged and presented to the
MarketGraphic’s computer center for analysis and
publication.
In
addition
to
the
above,
MarketGraphics, if it determines that additional
training is necessary, may require that Berge’s
representative undergo additional training outside of
Berge’s territory in one of the other areas currently
served by MarketGraphics.
7.

FORMS AND MATERIALS.

MarketGraphics shall designate and provide the
form of all forms and other materials to be used in
the collection of information and data. Berge shall
pay the cost of reproduction of the materials used by
Berge in its operation and only use MarketGraphics
forms, systems and process.

86a
8.

INFORMATION
RESEARCH.

COLLECTION

AND

Berge shall provide such personnel as may be
necessary to collect, document, record and deliver to
MarketGraphics the market activity, statistical data,
on site observations and other information and
materials necessary for the time preparation of the
Reports. Berge shall promptly and regularly deliver
such information and data so as to reasonably allow
MarketGraphics to receive, analyze, and publish the
Reports once every four (4) months on a schedule set
by MarketGraphics as established by the date the
first report is produced.
9.

COMPUTER
ANALYSIS.

PROCESSING

AND

MarketGraphics
shall
maintain
reasonable
computer hardware and software systems to analyze
the data and information received from Berge and to
produce and publish the Reports. Berge shall be
available and responsive during the report
production period to answer questions to the
computer center.
10. COMPLIANCE
WITH
REGULATIONS.

LAWS

AND

Berge shall operate its business in strict
compliance with all applicable laws, rules and
regulations of all governmental authorities; shall
comply with all applicable wage, hour and other laws
and regulations of the Federal, state or local
governments; shall prepare and file all necessary tax
returns and shall pay all taxes, including sales tax,
imposed upon Berge and Berge’s business.

87a
11. INDEMNIFICATION.
Berge hereby agrees to protect, defend, and
indemnify
MarketGraphics,
its
subsidiaries,
affiliates and designees, and hold them harmless
from and against any and all costs, expenses,
including attorneys fees, court costs, losses,
liabilities, damages, claims and demands of every
kind or nature, arising in any way out of the
operation of Berge’s activities as a licensee of
MarketGraphics or from the publication of the
Reports in Berge’s territory defined above.
12. INSURANCE
To standardize insurance coverage and to provide
MarketGraphics and Berge protection against
insurable risks, MarketGraphics may describe
minimum standards and limits for certain types of
insurance coverage to be purchased by Berge. If
Berge fails or refuses to purchase insurance
conforming to the standards and limits prescribed by
MarketGraphics, MarketGraphics may obtain,
through agents and insurance companies of its
choosing, such insurance as is necessary to meet
such standards. Payment for such insurance shall be
borne by Berge over and above report cost.
All insurance purchased by or for Berge shall name
MarketGraphics as an additional insured and paid
insurance shall provide that MarketGraphics shall
be given at least thirty (30) days prior written notice
of any termination, amendment, cancellation or
modification thereof. Berge shall promptly provide
MarketGraphics with Certificates of Insurance
evidencing such coverage within ten (10) days
following execution hereof.

88a
13. RELATIONSHIP OF THE PARTIES.
In all matters pertaining to the operation of Berge’s
business in cooperation with MarketGraphics, Berge
shall be an independent contractor. No employee of
Berge shall be deemed to be an employee of
MarketGraphics. Nothing herein contained in this
Agreement shall be construed so as to create a
partnership, joint venture, or agency; and neither
party shall be liable for the debts and obligations of
the other. This is a license not a franchise.
MarketGraphics reserves the right to establish its
corporate right to do business in any state.
14. OWNERSHIP OF MARKET DATA AND
RESEARCH.
The parties agree that all data and information
collected by Berge for use in preparing the Reports
shall upon every collection and delivery to
MarketGraphics, become the exclusive property and
asset of MarketGraphics. MarketGraphics shall have
the right and authority to package and sell the data
and or information in the Reports to third parties,
provided such activity shall not generally interfere
with Berge’s operations and provided the sale or
distribution of such data and information by
MarketGraphics is not generally directed to an
audience which would cause competition between
MarketGraphics and Berge.
15. CONFIDENTIALITY AND COPYRIGHT.
Berge acknowledges and agrees that any and all
forms, materials, maps, guides, and other
documents, machines, equipment and other
materials (collectively the “Materials”) provided by or
specified by MarketGraphics are trade secrets and/or

89a
copyrighted material. Any publication, distribution
or unauthorized copying of these materials would be
substantially injurious to MarketGraphics and
Berge. Berge agrees that it and all of its employees
shall at all times hold such materials in strict
confidence and secrecy in order to protect the
business
interests
of
both
Berge
and
MarketGraphics. Berge will have his attorney
prepare an agreement for any and all of his
employees to sign to legally bind those employees to
these agreements as may apply.
16. DEFAULT AND TERMINATION.
This agreement may be terminated only for cause
or by mutual agreement. “Cause” is hereby defined
as a material breach of this Agreement.
MarketGraphics shall exercise its right to terminate
this Agreement in the following manner:
A.

Termination Upon Notice.

Except with respect to Berge’s failure to pay any of
the sums due MarketGraphics hereunder, or except
as herein expressly provided, MarketGraphics may
terminate this Agreement only upon thirty (30) days
prior written notice to Berge, setting forth the
material breach complained of. If Berge shall cure
the breach prior to the end of such period,
MarketGraphic’s right to terminate this Agreement
shall cease; provided, however, that if, because of the
nature of the breach, Berge shall be unable to cure
the same within thirty (30) day period, Berge shall
be given such additional time as shall be reasonable
necessary within which to cure said breach, upon
condition that Berge shall, upon receipt of notice
from MarketGraphics, immediately commence to

90a
cure such breach and continue to use its best efforts
to do so to the sole satisfaction of MarketGraphics.
With respect to any default by Berge of its
obligation to pay any sums due MarketGraphics
under this Agreement, MarketGraphics may
terminate this Agreement upon not less than fifteen
(15) days prior written notice of such default. If
Berge shall cure said default prior to the end of such
period, MarketGraphics right to terminate this
agreement shall cease.
B.

Termination Without Notice

MarketGraphics shall have the right to terminate
this Agreement without prior written notice to Berge
upon occurrence of any of the following events, each
of which shall be deemed an incurable breach of this
Agreement:
Berge’s willful or grossly negligent providing of
significantly inaccurate or misleading data to
MarketGraphics which would materially affect the
quality and accuracy of the reports. In the event that
Berge shall be adjudged a bankrupt or file for
bankruptcy, or shall make an assignment for the
benefit of creditors, or shall allow a judgment against
him in the amount of more then $5,000.00, or shall
allow any of the forms or materials provided by
MarketGraphics for use in Berge’s operations to be
copied or distributed to parties or persons outside of
MarketGraphic’s or Berge’s personnel, or is convicted
of any felony, or any crime involving moral
turpitude.
C.

Effect of Termination.

No termination pursuant to this part shall excuse
or forgive the payment of any amounts due

91a
MarketGraphics hereunder and the same shall
remain the personal obligation of Berge. In the event
of any litigation regarding the termination of this
Agreement, a material breach of this Agreement or
the collection of any sums due hereunder, the
prevailing party shall be entitled to collect its costs
and expenses in such litigation, including reasonable
attorneys fees. In the event of termination of this
Agreement, whether by reason of default or other
cause, in addition to MarketGraphic’s rights as
stated herein, Berge shall forthwith discontinue the
use of MarketGraphic’s trademarks and trade name
and shall not thereafter operate or do business under
any name or in any manner that might tend to give
the general public the impression that he is
operating a business similar to MarketGraphic’s nor
shall Berge thereafter use, in any manner, or for any
purpose,
directly
or
indirectly,
any
of
MarketGraphic’s
trade
secrets,
procedures,
techniques or materials acquired by Berge by virtue
of the relationship established by this Agreement,
nor any copyrights, trademarks, trade names, and
patents now or hereafter applied for or granted in
connection therewith. Waiver by MarketGraphics of
any default or breach shall not be deemed to be a
waiver of any other subsequent default or breach.
Not withstanding the above, MarketGraphics at
their sole discretion reserves the right during any
conflict of any type to determine if Reports are not
being adequately handled for clients by Berge and
can take over the operation and retain income while
the conflict is being addressed to a conclusion.

92a
17. NOTICES.
All notices hereunder shall be in writing and shall
be deemed to have been given if sent by hand
delivery, overnight courier or certified mail, postage
prepaid, addressed to the following address:
If to MarketGraphics:

MarketGraphics National,
Inc.
Attn. Edsel Charles
5530 Hearthstone Lane
Brentwood, TN 37027

If to Berge:

Don Berge
PO Box 181532
Memphis, Tn. 38181

18. MISCELLANEOUS
Headings in this Agreement are for convenience
only and are not be used for interpreting or
construing provision hereof. Time is of the essence of
this Agreement and all parts thereof, and of the
obligations of the parties set out herein. This
Agreement shall be construed and enforced in
accordance with the laws of the State of Tennessee.
This Contract shall be binding upon, and shall inure
to the benefit, the parties hereto, and their
respective successors and assigns
19. ASSIGNMENT:
This Agreement may be assigned to another
corporation or entity only by MarketGraphics
National, Inc.
Dated this 15th day of January, 1996 1997.
/s/ Don Berge
Don Berge

93a
MarketGraphics National, Inc.,
a Tennessee corporation
By: /s/ Edsell Charles
Its: President

94a
APPENDIX I
_________
U.S. BANKRUPTCY COURT
MIDDLE DISTRICT OF TENNESSEE
(NASHVILLE)
_________
Adversary Proceeding #3:13-ap-90400
_________
MARKETGRAPHICS RESEARCH GROUP, INC.,
Plaintiff
v.
DAVID PETER BERGE,
Defendant.
_________
REPORTER’S OFFICIAL TRANSCRIPT OF
PROCEEDINGS
March 31, 2016
BEFORE:
HONORABLE MARIAN
Bankruptcy Judge

F.

APPEARANCES:
For the Plaintiff:
EUGENE N. BULSO, JR., ESQ.,
PAUL JOSEPH KROG, ESQ.
414 Union Street, Suite 1740
Nashville, TN 37219

HARRISON,

95a
615-780-4115
For the Defendant:
STEVEN L. LEFKOVITZ, ESQ.
618 Church Street, Suite 410
Nashville, TN 37219
615-256-8300
TRANSCRIBED BY:
Ann Woofter, Certified Court Reporter
2200 Golden Oak Place
Madison, Tennessee 37115
615-868-8800
_________
PROCEEDINGS
***
[Testimony of David Berge, pp. 11:13-13:23; 20:5-24;
27:19-29:16; 36:25-38:7; 39:25-40:8; 45:19-48:5;
58:18-25; 64:17-68:1; 71:1-74:15]
***
Q Your father operated between 1997 and 2012 a
business under the name of MarketGraphics of
Memphis, did he not?
A

Yes.

Q And to clarify, your father is Mr. Donald
Berge?
A

Yes.

96a
Q And you worked with your father’s
MarketGraphics of Memphis business from its
inception in 1997, correct?
A

Yes, off and on, over the course of 15 years.

Q Your father operated that business pursuant
to a license or associate agreement with
MarketGraphics of Memphis, correct?
A

I believe it was called an associate agreement.

Q And my question was - let me restate the
question. Your father operated MarketGraphics of
Memphis pursuant to an associate agreement with
MarketGraphics Research Group or MarketGraphics
National, correct?
A

Yes.

Q And that was a housing market research
business, correct?
A

Correct.

Q You and your father collected housing market
data and delivered it to MarketGraphics here in
Nashville and MarketGraphics produced a report
based on the data, correct?
A

Correct.

Q You did what they call drive the market for
MarketGraphics of Memphis, correct?
A
Yes; my father and me, and sometimes when I
was in college I didn’t do it, and there were other
occasions within the 15 years where I had another
job that kept me from doing the drive.
Q With the exception of a few odd cycles where
you weren’t able to participate, you participated in
driving the market during this period, correct?

97a
A

Correct.

THE COURT: What does it mean by driving the
market? I don’t understand that. Are you going to
ask that?
MR. KROG: I can ask it or he can answer the
question from Your Honor.
THE COURT: Yes, answer it.
THE WITNESS: Well, to drive the market, we go
through every fourth month and go through all of the
active subdivisions and the active subdivisions in our
database. We count the starts and closings, and
based on those starts and closings, it’s entered into a
database that formulates a report, and bankers can
utilize that report to decide whether or not a
subdivision is a good investment. Like if a builder
comes to X Bank and says I want a construction lot
on three lots in a subdivision, they will turn around a
look at the data to decide whether or not that
construction loan is a good idea. So, we basically,
every four months just refresh the data and based on
the previous data you can tell the growth, what areas
are growing and what subdivisions are successful,
what subdivisions have been overbuilt and things
like that.
***
Q Mr. Berge, each one of these maps we’ve
looked at has the copyright legend in the lower righthand corner, doesn’t it?
A
Yeah, at the very bottom, MarketGraphics
Research Group, Incorporated, 2009.

98a
Q And the ones we saw for 2007, 2008, 2010,
2011 and 2012 have the corresponding legend, didn’t
they, Mr. Berge?
A

Yes, I’m assuming so.

Q Feel free to go back through them and look at
them one-by-one.
A

Yes.

Q

The record will reflect that they were there.

A

Okay.

Q And these are the maps, Mr. Berge, that you
spent eight to 12 hours with in a car for three weeks
at a time, three times a year for these years, correct?
A

For a total of nine weeks a year, correct.
***

Q And you continued to work with your father’s
market research business after he switched over to
being Realysis of Memphis, correct?
A
That’s correct. It was still three weeks at a
time, three times a year up to a quarterly. So an
additional fourth.
Q You did more than just drive the market for
Realysis Memphis, didn’t you, Mr. Berge?
A
That was the bulk of it. I also went to public
websites where plat approvals were recorded so that
we could figure out if there were any new
subdivisions on the horizon.
Q

That was called pipeline research?

A
Well, pipeline was actually one step even
farther back. That’s when tracts of lands are rezoned
to residential and that gets put in the database as
well.

99a
Q And you did pipeline research for Realysis,
didn’t you?
A
I did part of it. I did the research for two out of
the five counties.
Q And you helped hold the MLS data for the
price information that was put into the (inaudible),
correct?
A

That’s correct.

Q And you did between 90 and 100 percent of the
data entry for Realysis, didn’t you? You went out and
drove and then you typed it all into the computer so
it could go into the book?
A
Well, starting off like when I was in college
and stuff like that.
Q Mr. Berge, I didn’t ask you about what you did
in college, I asked you what you did for Realysis.
A
Oh, for Realysis. Yeah, I probably did 90
percent. My dad would help me sometimes if we were
behind schedule or something.
Q And there was one occasion you generated the
Realysis Memphis invoices, didn’t you?
A

Yes.

Q You even had a desk at your parents’ house
that was your desk where you did these things,
didn’t you?
A
That’s correct. I didn’t have MarketGraphics
or Realysis material at my Nashville house. All the
materials were kept with my father.
Q So you came and you had your desk there and
you did the research and you drove the market and

100a
you came home and you put it into the computer, and
then you went back home?
A

Yes, sir.
***

Q You knew in the fall of 2012 that you and your
father didn’t have MarketGraphics’ permission to
operate a different market research business, didn’t
you?
A
Yes. I was aware of the non-compete; however,
I never read it or signed it but I was aware of a noncompete that my father kept telling me was invalid
because there was no time limit on there and that
there was no configuration. So I kind of disregarded
it. I mean I trusted what my father said and I can
only make decisions based on the information I’m
getting.
Q
Mr. Berge, you could have gone out and done
your own investigation, couldn’t you have?
A

Yes, I guess.

Q You could have asked him to give you a copy of
the associate agreement, couldn’t you have?
A

I could have.

Q

And you never did?

A

That’s correct.

Q
And you never asked any attorney that you
consulted prior to the fall of 2012 whether your
father’s non-compete was enforceable, did you?
A

No, I did not.

Q You didn’t ask in the fall or winter of 2012
when you were starting Realysis of Memphis, you
didn’t ask any attorney, “Please look at this non-

101a
compete and tell me whether or not it’s enforceable.
Here’s a description of what we’re doing.”
A

Right, I didn’t ask that.

Q In fact, you knew in September of 2012 or the
first days of October of that year that you were likely
to get sued by MarketGraphics for what you were
doing, didn’t you?
A

I knew that might be a possibility.
***

Q Your father didn’t follow the agreement he
had with MarketGraphics, did he?
A

No.

Q And you knew in October of 2012 that what he
was doing was breaking that agreement, didn’t you?
A
Well, like I said before, I dismissed it because
the information I was getting was that it wasn’t valid
and it wouldn’t hold up in court. So, at the time, no, I
didn’t know that he was technically doing anything
wrong.
***
Q You name was on just about everything
Realysis of Memphis put out as its Owner and
President, wasn’t it, Mr. Berge?
A

Yes. I found that out through the facts, yes.

Q Well, you knew at the time that it was on the
Realysis Memphis website, didn’t you?
A

I did.

Q And
President?

that

it

listed

you

as

Owner

and

102a
A
Owner I’m not sure but President, yes. It may
have said I was owner as well; I didn’t create the
website.
Q Only that there was an address with your
name being used to send emails from Realysis of
Memphis?
A
Yes,
my
dad
created
Don@Realysis,
David@Realysis and Berge@Realysis. He did that
without my knowledge and I didn’t know how to
access Realysis.com. I didn’t have a password or
anything.
Q You knew that they were being used to send
emails that appeared to come from you, didn’t you?
A
I only knew about the verification letter that
came out at the very beginning. I was not aware to
the extent that he was using my name at the bottom.
Q You never asked him to stop doing that, did
you, Mr. Berge?
A

No, because I wasn’t aware of it.

Q Well, Mr. Berge, you knew that he was doing
it at least some, weren’t you, Mr. Berge?
A
Once I knew. And that was something I
actually read.
Q You didn’t inquire as to whether or not he was
doing it more often, did you?
A

Like I said, I wasn’t aware of it.

Q You didn’t inquire as to whether he was doing
it more often, did you, Mr. Berge?
A

No, I did not.

Q You didn’t say anything to the effect of, Dad,
I’m not good with that idea.

103a
A

I wasn’t aware that it was happening.

Q You were aware that the invoices that went
out in your name, weren’t you, Mr. Berge?
A

Yes, I believe so.

Q You held yourself out as the President of
Realysis Memphis, didn’t you, Mr. Berge?
A

I held myself out?

Q

Yes.

A
Yeah, on my Facebook page and Linked In.
But it ended up just being a superficial title.
Q Well, if you look at Exhibit 68, Mr. Berge,
that’s your Linked In page as it appeared in early
2013, isn’t it?
A

Yes.

MR. KROG: Your Honor, I would move Exhibit 68
into evidence.
MR. LEFKOVITZ: No objection.
THE COURT: It will be admitted.
(Exhibit 68 admitted)
BY MR. KROG:
Q And you will admit, Mr. Berge, that your
father didn’t create this Linked In page, did he?
A

That’s correct.
***

Q You were going to help your father with his
Realysis business whether he took a few clients or all
the clients of MarketGraphics, weren’t you?
A

Uh-huh.

104a
Q And is it fair to say, Mr. Berge, that you
consciously disregarded the danger that posed to
MarketGraphics, wouldn’t it?
A

Right.
***

Q There was a letter sent out from Realysis of
Memphis in response to the letter that we previously
talked about from Mr. Charles, wasn’t there?
A
Yes, what my dad liked to refer to as the
verification letter.
Q

And if we look briefly at Exhibit 48 -

A

The one from October 4, 2012?

Q Yes, Mr. Berge. You understand that that’s
the letter from Edsel Charles that we’ve referred to,
correct?
A

Yes. I never read this.

Q But that’s the letter to which your father
referred?
A

That’s correct.

Q If we look at Exhibit 58, Mr. Berge, this is
what you referred to a minute ago as the verification
letter, isn’t it?
A

That’s correct.

Q You saw this letter before it was sent, didn’t
you, Mr. Berge?
A

That’s correct.

Q And the letter was sent as an attachment to
an email to all of the people for whom your father
had been doing business in Memphis?
A

Yes, I would assume so.

105a
Q Can we turn to the second page, Mr. Berge?
This letter is written in your name, isn’t it?
A

That’s correct.

Q And it was written in your name when you
read it before it was sent?
A

That’s correct; it was.

Q And when you looked over this letter before it
was sent, you didn’t object to anything in it, did you?
A

No.

Q

In fact, you told your father that it was fine.

A

Yes.

Q And you agree, Mr. Berge, that this letter is
an attempt to persuade the various people with
whom your father had been doing business in
Memphis to keep doing business with him via
Realysis of Memphis and not to do business with
MarketGraphics, don’t you, Mr. Berge?
A
It could be perceived that way. I think his
intention was to inform the clients that
MarketGraphics of Memphis was no longer going to
be audited by my father and myself. There’s other
stuff in there, too.
Q There’s quite a bit more in here, isn’t there,
Mr. Berge?
A

Yes.

Q Including, Mr. Berge, several statements that
are just plain false, aren’t they, Mr. Berge?
A

Which ones are you referring to?

Q Well, if you’ll look at the second paragraph,
you’ll see that the LGLG (phonetic) letter was sent to
those who have been clients of my father, Donald

106a
Berge, for many years. And in bold, “who have not
been clients of MarketGraphics Research Group in
Nashville.” That’s not a true statement, is it, Mr.
Berge?
A

I believe it to be true, yes.

Q Well, Judge Trauger determined that it wasn’t
true, didn’t she, Mr. Berge?
A

By the motion for summary judgment?

Q The preliminary junction hearing on May 31,
2013, Judge Trauger said, in words of one syllable,
essentially, that these people had been clients, that
they were MarketGraphics’ clients.
MR. LEFKOVITZ: Your Honor, I object to that.
We’re sitting up here and the witness has testified
that he believed it to be a truthful statement.
Whether or not the Court agreed or accepted that
opinion, it was still his opinion at the time he uttered
it that he believed that paragraph. The Court
disagreed with that. That doesn’t make it false.
THE COURT: Go ahead. Move along.
BY MR. KROG:
Q

Mr. Berge, you knew when you -

A
In addition to that, we have evidence, my
father has evidence that never came to light that
disputes these things but we never got a trial.
Q Mr. Berge, you were aware when you read this
letter that your father had a non-compete with
MarketGraphics, correct?
A
Yes. I was told on most locations he did not
believe it to be valid.
***

107a
Q If
your
father’s
non-compete
with
MarketGraphics is enforceable, the letter, by failing
to reference it, is misleading, isn’t it, Mr. Berge?
A
I don’t think the letter itself is misleading. It’s
all pretty factual. He was working on the knowledge
that it was wasn’t valid and I don’t think it’s common
practice to inform people that you have a noncompete that you’ve been told by your lawyers is not
valid.
Q Well, Mr. Berge, didn’t you agree in your
deposition with my statement? You are giving an
assessment, you will agree, though, Mr. Berge, that
if the (inaudible) precluded from selling market
research services to the recipients of this letter that
the letter would be misleading. You answered,
“Yeah, that’s if the non-compete was valid.”
A

That’s right. That’s what I’m saying.

Q You agree, Mr. Berge, don’t you, that the
presence of the non-compete and the fact that your
father was breaching it by continuing the market
research business, that might be something that
people that he’s sending that letter to might want to
know?
A
Possibly. I mean you agree that a bank might
want to know if it’s doing business with somebody
who doesn’t keep his agreements?
MR. LEFKOVITZ: Again, Your Honor, that calls for
a conclusion. There’s no way he can answer that.
THE COURT: Go ahead and answer. I’m not sure
how relevant that is but go ahead.
THE WITNESS: Would you repeat it again?
BY MR. KROG:

108a
Q You agree that a bank might like to know if
it’s doing business with somebody who doesn’t keep
agreements he signs?
A

Possibly, yes.

Q

It’s more likely than not.

A
In a relationship with my father for 10 or 15
years, if he had mentioned that there was a noncompete but that he was fighting it, there’s still a
good chance I would have gone with him anyway.
Q You agree that it’s more likely than not, Mr.
Berge, that a bank A
I have no idea what bankers would think. I
have no idea what decisions they make. I don’t know
(inaudible).
Q Do you think banks, generally, like dealing
with dishonest people?
MR. LEFKOVITZ: Objection.
THE COURT: Sustained, sustained. Speculative.
BY MR. KROG:
Q Do you like dealing with dishonest people, Mr.
Berge?
MR. LEFKOVITZ: Objection, Your Honor, that’s
argumentative.
THE COURT: Sustained.
BY MR. KROG:
Q Mr. Berge, you told your father that the
October 30 letter was fine, didn’t you?
A
Yeah. He asked me, you know, look through it
and see if you see any typos. I gave it a quick
through and I said, “That’s fine with me.” I didn’t sit
there and pick it apart.

109a
Q You didn’t tell him not to send it with your
name on it?
A

No, I didn’t not.

Q One of the reasons your father sent this letter
with your name on it, Mr. Berge, is because he knew
that when he was sued by MarketGraphics it would
become evidence and it would support his defense
that MR. LEFKOVITZ: Objection. That’s beyond
THE COURT: Sustained. I don’t know what he
knew about what his father thought or - his father
can say what he knew.
BY MR. KROG:
Q Mr. Berge, you knew, in October of 2012 when
you looked at this letter, that if and when you were
sued by MarketGraphics, as you were anticipating,
that the letter would become a piece of evidence,
didn’t you, Mr. Berge? You knew that it would be
available A
You give me too much credit, man. I didn’t this was not my baby. This was my father’s doing. He
asked me what I thought and I said yes but I didn’t
make decisions that - I was so very much in the
backseat I probably wasn’t even in the car. I mean
I’m not even living in Memphis. He’s not asking me
permission to do all this stuff. And to the extent of
the emails that he wrote under my name, I had no
idea of the extent of it. The only one I knew for sure
was this one.

110a
***
[Testimony of Paula Charles, pp. 111:23-114:19;
119:14-120:7; 122:25-124:13]
***
Q

Where is it you live, Ms. Charles?

A

Brentwood, Tennessee.

Q

Where is it that you are employed?

A

I am the President of MarketGraphics.

Q MarketGraphics
Plaintiff?
A

Research

Group,

the

Yes, sir.

Q Were you the President of MarketGraphics in
2012?
A

Yes, sir.

Q Have you been the President continuously
since then?
A

Yes, sir.

Q If you could briefly describe the business in
which MarketGraphics is engaged.
A
To scale it down for ease of explaining here,
MarketGraphics is a new home market research
company that collects specific data that is then
processed in the Nashville/Franklin office that
produces a variety of charts and graphs, but more
importantly, information in such a way that banks,
builders, developers, utility companies, a variety of
people that are in the new home industry can use the
data to determine whether there is over-building,
under-building and a variety of other things.
Q And does MarketGraphics study the housing
market in Memphis?

111a
A

Yes, they do.

Q

And the surrounding counties?

A

Yes.

Q And does MarketGraphics put out a report
about Memphis?
A

Yes, they do.

Q Is Exhibit 51, Ms. Charles, which should be
there in the box with you, is Exhibit 51 and example
of the report that MarketGraphics produces
concerning Memphis?
A

Yes, sir.

MR. KROG: Your Honor, I’d like to move Exhibit
51 MR. LEFKOVITZ: No objection.
THE COURT: It will be admitted.
(Exhibit 51 admitted)
BY MR. KROG:
Q Does MarketGraphics collect the data on every
housing market itself?
A

Can you ask that question again, please?

Q Sure. Does MarketGraphics enter what are
called associate relationships for some markets?
A
Some of our MarketGraphics cities, yes, have a
licensed associate, while others are what I would say
managed out of our corporate office in Franklin.
Q For the markets that you manage, out of your
corporate office, who handles the client relationships
in those offices for those markets?

112a
A
When it is time to do the client presentations,
typically that takes place in the client’s offices.
That’s done by Edsel Charles.
Q

And clients of MarketGraphics directly, right?

A

That’s correct.

Q

Who gets the check if there’s an associate?

A

The associate.

Q And what is the financial relationship between
MarketGraphics and the associate?
A
Generally speaking, when a person becomes a
licensed associate there is an initial licensing fee.
That fee then comes back to, starting about the
second year of the agreement, and then additionally
the associate pays for the production of the report,
the copying, shipping, so forth. Additionally, one
other item is that they pay for the computer
processing of the data. And there are a few other
ancillary things.
***
Q If you’ll turn to Tab 41, Ms. Charles. Is
Exhibit 41 an email that you sent?
A

Yes, it is an email that I sent.

Q

To Mr. Donald Berge on October 1, 2012?

A

Yes, sir.

Q

Was the attachment to that email Exhibit

42?
A

Yes, I believe so.

MR. KROG: Your Honor, I’d like to move Exhibits
41 and 42.
MR. LEFKOVITZ: No objection.

113a
THE COURT: They’ll be admitted.
(Exhibits 41 and 42 admitted)
BY MR. KROG:
Q And on the second page of this October 1, 2012
letter, Ms. Charles, did you and Mr. Edsel Charles
expressly remind Mr. Donald Berge about the noncompete provision in the associate agreement?
A

Yes, sir.
***

Q If you would look, Ms. Charles, at Exhibit 48,
can you identify Exhibit 48 for us?
A
Yes, it’s a letter that we sent to all the
MarketGraphics Memphis clients that explained that
Don was retiring. And while we did that we also took
the opportunity to explain that we had changed the
format of our reports to a spiral bound. We also
offered additional mapping products for them, so we
detailed that there.
Q Did anything Mr. Donald Berge had
communicated to MarketGraphics before 2012 give
MarketGraphics the impression that Mr. Donald
Berge had not retired?
A

Can you ask that again, please?

Q Did Mr. Donald Berge tell MarketGraphics
prior to the time this letter was sent that he was
retiring?
A
No, this was the first time I’d heard he was
retiring.
MR. KROG: Your Honor, we would move Exhibit 48
into evidence.
MR. LEFKOVITZ: No objection.

114a
THE COURT: It will be admitted.
(Exhibit 48 admitted)
BY MR. KROG:
Q Ms. Charles, if you would please look at
Exhibit 49. Can you identify Exhibit 49 for us?
A
Yes. What transpired after the retirement
notice and us scrambling to make sure we had the
market data available in time for the clients, it came
to our attention that, while talking to the clients and
trying to explain the transition, that, in fact, Don
wasn’t retiring and that the business was continuing
under a different name. So, in this letter we stated
parts of our associate agreement, reminding him of
confidentiality, copyright and so forth.
Q And one of the parts that you were reminding
him of was the part that we see credited on the
second page, isn’t it, that you had a non-compete
agreement with him, correct?
A

Absolutely.
***

